<html>
<title> - ONE YEAR LATER: IMPLEMENTATION OF THE TSA MODERNIZATION ACT</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




      ONE YEAR LATER: IMPLEMENTATION OF THE TSA MODERNIZATION ACT

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                           TRANSPORTATION AND
                           MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 29, 2019

                               __________

                           Serial No. 116-46

                               __________

       Printed for the use of the Committee on Homeland Security
   
   
   

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

        Available via the World Wide Web: http://www.govinfo.gov
                              __________

                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
40-462 PDF                 WASHINGTON : 2020 














                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           Van Taylor, Texas
Elissa Slotkin, Michigan             John Joyce, Pennsylvania
Emanuel Cleaver, Missouri            Dan Crenshaw, Texas
Al Green, Texas                      Michael Guest, Mississippi
Yvette D. Clarke, New York           Dan Bishop, North Carolina
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 ------                                

          SUBCOMMITTEE ON TRANSPORTATION AND MARITIME SECURITY

                  J. Luis Correa, California, Chairman
Emanuel Cleaver, Missouri            Debbie Lesko, Arizona, Ranking 
Dina Titus, Nevada                       Member
Bonnie Watson Coleman, New Jersey    John Katko, New York
Nanette Diaz Barragan, California    Mark Green, Tennessee
Val Butler Deming, Florida           Dan Bishop, North Carolina
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
                Alex Marston, Subcomittee Staff Director
            Kyle Klein, Minority Subcomittee Staff Director 
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable J. Luis Correa, a Representative in Congress From 
  the State of California, and Chairman, Subcommittee on 
  Transportation and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     5
The Honorable Debbie Lesko, a Representative in Congress From the 
  State of Arizona, and Ranking Member, Subcommittee on 
  Transportation and Maritime Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     7

                               Witnesses

Ms. Patricia F.S. Cogswell, Acting Deputy Administrator, 
  Transportation Security Administration, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10
Mr. William Russell, Director, Homeland Security and Justice, 
  Government Accountability Office:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16

                             For the Record

The Honorable J. Luis Correa, a Representative in Congress From 
  the State of California, and Chairman, Subcommittee on 
  Transportation and Maritime Security:
  Letter From the American Federation of Government Employees, 
    AFL-CIO......................................................     2

                                Appendix

Questions From Chairman J. Luis Correa for Patricia F.S. Cogswell    43
Questions From Ranking Member Debbie Lesko for Patricia F.S. 
  Cogswell.......................................................    44

 
      ONE YEAR LATER: IMPLEMENTATION OF THE TSA MODERNIZATION ACT

                              ----------                              


                       Tuesday, October 29, 2019

             U.S. House of Representatives,
                    Committee on Homeland Security,
                            Subcommittee on Transportation 
                                     and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:01 a.m., in 
room 310, Cannon House Office Building, Hon. J. Luis Correa 
[Chairman of the subcommittee] presiding.
    Present: Representatives Correa, Cleaver, Coleman, 
Barragan; Lesko, Katko, Green, and Bishop.
    Also present: Representative Jackson Lee.
    Mr. Correa. Good morning, everyone. Welcome. The 
Subcommittee on Transportation and Maritime Security will now 
come to order.
    I like to start off by welcoming Mr. Dan Bishop of North 
Carolina to the committee.
    Welcome, sir.
    Mr. Bishop. Thank you, Mr. Chairman. I am delighted to be 
with you.
    Mr. Correa. I look forward to working with you, sir.
    The subcommittee is meeting today to receive testimony on, 
``One Year Later, the Implementation of The TSA Modernization 
Act.''
    Without objection, the Chair is authorized to declare the 
subcommittee in recess at any point.
    I want to thank you, Ranking Member Lesko, and our 
distinguished witnesses for joining us today.
    One year ago this month Congress enacted the first 
comprehensive reauthorization of the TSA, known as the TSA 
Modernization Act. The Act incorporated a substantial number of 
bills and provisions that originated in this committee. It 
stands as a testament to the committee's long-standing 
bipartisan efforts to conduct oversight of TSA.
    I thank my colleagues, Mrs. Watson Coleman and Ms. Katko--
and Mr. Katko, I should say, for their leadership in advancing 
legislation last Congress that--I am glad to carry on those 
efforts with the Ranking Member Lesko in this Congress.
    The TSA Modernization Act enhances and improves our 
Nation's transportation security. The Act is too comprehensive 
to describe in detail in the few minutes that we have, but I 
would like to highlight a few key points.
    First, the Act established a 5-year term for the TSA 
administrator to provide stability to the agency's leadership. 
Sadly, the current chaos and leadership vacancies within DHS 
have undermined those efforts. Administrator Pekoske has been 
forced to wear 2 hats, acting as both TSA administrator and DHS 
deputy secretary.
    I commend the administrator for answering the call to duty, 
but the role of TSA administrator is a full-time job that 
requires full-time dedication to ensuring the security of our 
transportation system. I hope the President will nominate 
permanent leaders to fill many of the DHS vacancies, and thus 
provide TSA with the stable leadership that Congress envisioned 
when it passed this legislation.
    In addition to establishing the administrator's term, the 
TSA Modernization Act first pushes TSA to enhance its strategic 
planning efforts; No. 2, secures public areas of airport and 
surface transportation systems; and it improves the security of 
air cargo transportation.
    We appreciate TSA's dedication to implementing the many 
directives and reporting requirements in this legislation, as 
well as TSA's transparency in updating the committee on its 
progress. Although TSA has made significant progress on 
implementing the Act, I am still concerned that TSA has not yet 
complied with the provisions that present some of the 
committee's biggest priorities in this act.
    First, TSA is late in providing this committee a report on 
recommendations to reform its personnel management system. As 
you know, this subcommittee recently highlighted issues facing 
the TSA work force at its hearing in May.
    Transportation security officers serve on the front lines, 
securing our Nation's transportation system, yet are among the 
lowest paid workers in the Federal Government. They are also 
not afforded some of the basic workplace protections that most 
other Government employees enjoy. Improving working conditions 
for these officers is key to TSA's evolution as a professional 
National security agency, and I look forward to hearing more 
about the status of this important report.
    I am going to ask, at this point, unanimous consent to 
enter into the record a letter from the American Federation of 
Government Employees.
    [The information follows:]
  Letter From the American Federation of Government Employees, AFL-CIO
                                  October 29, 2019.
Honorable Lou Correa,
Chairman, Subcommittee on Transportation and Maritime Security, House 
        Homeland Security Committee, Washington, DC 20515.
Honorable Debbie Lesko,
Ranking Member, Subcommittee on Transportation and Maritime Security, 
        House Homeland Security Committee, Washington, DC 20515.
    Dear Chairman Correa and Ranking Member Lesko: On behalf of the 
American Federation of Government Employees, AFL-CIO, which represents 
more than 700,000 Federal and District of Columbia employees who serve 
the American people in 70 different agencies, including the 44,000 
Transportation Security Officers who protect the flying public, we 
appreciate the opportunity to submit this letter for the record for the 
Subcommittee's hearing, ``One Year Later: Implementation of the TSA 
Modernization Act.''
    Transportation Security Officers (TSOs) are sworn to protect the 
nation's aviation security. They conduct themselves with the utmost 
professionalism and respect for the importance of the work they do. 
Every day, they identify and eradicate threats to aviation security. 
TSOs take pride in making sure all systems are working and that 
personnel are fully trained in operations and observing standard 
operating procedures to ensure security.
    Today, we commend the Subcommittee for its examination of how the 
TSA Modernization Act has enhanced airport security, and where it has 
fallen short. As the Committee considers the implementation of the Act, 
we point out one provision, Section 1907, which required the TSA 
Administrator to convene a working group consisting of representatives 
of the TSA and representatives of AFGE to recommend reforms to TSA's 
personnel management system. Security screening requires a substantial 
investment in technology, but it is essentially a human function and 
thereby requires a commensurate investment in the personnel who carry 
out these crucial functions.
    TSA's personnel management system is perhaps the worst in the 
Federal Government. It is a system that gives agency management 
tremendous discretion and very little accountability because it 
deprives employees of full due process and collective bargaining rights 
guaranteed to other Federal employees under Title 5. Under Title 5, 
personnel management is governed by a set of checks and balances that 
ensures merit system principles are upheld for the benefit of good 
government. Title 5 processes provide mechanisms that prevent managers 
from hiring, firing, demoting, or disciplining employees for bad 
reasons such as politics, bias, bigotry, or to shift blame for 
mismanagement. Because TSA's workforce has fewer and weaker protections 
against the consequences of mismanagement, it is unsurprising that the 
agency experiences massive turnover, low morale, and a low level of 
trust in management's decisions.
    The recent decision to change the terms of coverage under the 
Federal Employees Health Benefits Program (FEHBP) for TSA's large 
``part-time'' workforce is a good example of the misuse of authority in 
the area of personnel management. Without notice, bargaining, or 
rationale; without any mention during any of the Section 1907 Work 
Group meetings, TSA issued a ``management directive'' on September 20, 
2019 that effected a reduction in the agency's contribution to FEHBP 
premiums for its part-time workforce. TSA defined part-time as all 
employees ``assigned to work schedules of 32 hours or less per week (64 
hours or less per pay period) . . . ''. Prior to the issuance of this 
directive, TSA paid the same portion of FEHBP premiums for its full-
time and part-time workforce. Now, for those hired after September 30, 
2019, FEHBP premiums will be pro-rated for those assigned to part-time 
schedules. Of course, the assignment of a part-time vs. a full-time 
schedule is at the sole discretion of management. Likewise, regular 
assignment of overtime for a ``part-time'' Transportation Security 
Officer (TSO) at management's discretion will not affect his or her 
status as a part-time employee with a lower employer subsidy for FEHBP.
    When TSA was established and granted authority to have a large 
portion of its workforce on permanent part-time status in order to 
maximize its flexibility, it agreed to provide FEHBP coverage on the 
same basis for its part-time and full-time workforce. This arrangement 
was far from optimal, as the vast majority of those assigned to part-
time schedules wanted and needed a full-time paycheck. The full FEHBP 
subsidy has served as an important offset to the undesirable and 
inadequate part-time schedule and associated salary. Indeed, TSA has 
acknowledged that low TSO salaries and involuntary part-time schedules 
have been large factors in creating the agency's difficulties with 
turnover and low morale, both of which undermine its ability to carry 
out its mission. Indeed, apart from the base meanness of the action, it 
is difficult to understand why TSA has decided to worsen its problems 
by cutting health insurance benefits for such a large portion of its 
workforce.
    The decision to convene a Working Group under Section 1907 of the 
TSA Modernization Act of 2018 was a second-best effort to address TSA's 
miserable record on the use of its vast flexibilities and discretion in 
the area of personnel management. AFGE has argued strenuously that 
TSA's personnel management shortcomings will not be solved unless and 
until its employees are provided the same rights under Title 5 as other 
Federal employees, including Federal law enforcement officers elsewhere 
in the Department of Homeland Security. The Working Group was not a 
substitute for collective bargaining rights, which at TSA exist almost 
entirely at the whim of each subsequent Administrator. Thus, the extent 
of these rights is highly politicized and varies with an 
administration's level of support toward the right of employees who 
elect union representation to engage in collective bargaining.
    Nevertheless, AFGE participated fully and in good faith in the 
Section 1907 Working Group meetings. As the surprise FEHBP reduction 
for a substantial portion of the TSO workforce shows, it is not at all 
clear that TSA participated on the same terms.
    The Section 1907 Working Group met over several months this year 
and TSA is preparing the Group's report to Congress. What was 
remarkable about the Working Group was that all proposals for 
improvement were made by the Group's AFGE members. Rather than a robust 
discussion of the needs of personnel from both a management and labor 
perspective, the Agency's participation was primarily delivered in the 
form of decisions to recommend AFGE's proposals or decline them with 
little or no discussion. Included were proposals to change pay scales 
to incorporate regular and reasonable increases over time, essential 
decisions about fitness for duty, fair representation of the workforce 
including reasonable grievance procedures and neutral arbitration, and 
basic rights at work. Without fair pay and representation for its TSOs, 
TSA will continue to experience high turnover, requiring significant 
investment in hiring and training.
    Because TSOs are so essential to the security of the flying public, 
they should be under the same law that governs personnel management in 
the rest of the Federal Government. It is just as important to TSA's 
mission that its workforce have fair compensation, full due process and 
union rights as it is to every other component of DHS. During the 
historic 2018-2019 Government shutdown, the Nation learned about the 
dedication and mettle of TSOs at the same time they learned of their 
meager pay and substandard rights on the job. Please remember that TSOs 
showed up at work every day during that difficult period. Many had to 
find additional temporary jobs to try to make ends meet as the shutdown 
dragged through three pay periods, but they kept their promise to the 
American public. TSOs are frequently required to perform mandatory 
overtime, are faced with ever-changing shifts and insufficient rest 
time between shifts, and management failure to execute the rotation of 
duties in accordance with standard operating procedures. These 
represent potential security threats, many of which we tried to address 
through the Working Group. Congress must understand that while AFGE did 
its best, TSA did not reciprocate and thus the Section 1907 of TSA 
Modernization Act was not fully utilized to improve personnel 
management in a way that will enhance aviation security.
    As the Subcommittee continues to examine the implementation of the 
TSA Modernization Act of 2018, please know the workforce stands ready 
and determined to ensure the security of the flying public. We take 
pride in our work protecting America's airports and skies. Should you 
have any questions, please contact Julie Tippens[.]
    Thank you for your consideration.
            Sincerely,
                                          Alethea Predeoux,
                                  Director, Legislative Department.

    Mr. Correa. Second, TSA is substantially late in providing 
a strategy that was due in February regarding plans to open 
procurement--the procurement process to a wider network of 
technology companies, including participation of small 
businesses. TSA relies on the small number of vendors today to 
provide many of the screening technologies in use at airports 
Nation-wide. As you know, small businesses, in particular, face 
difficulties in competing for TSA awards due to limited 
procurement cycles, high cost of certification, and lengthy 
testing and evaluation processes. I look forward to hearing 
what steps TSA is taking to ensure these processes are open and 
fair to all. Finally, TSA is overdue in providing an assessment 
of potential enhancements to surface transportation security. 
As you know, mass transit and other surface transportation 
systems are particularly vulnerable to terrorist attacks, and 
it is important that TSA prioritize completion of these 
requirements. TSA must work to come into full compliance with 
the requirements of the TSA Modernization Act as soon as 
possible.
    Once again I would like to thank TSA and the GAO for being 
here today, and I look forward to our conversation.
    [The statement of Chairman Correa follows:]
                    Statement of Chairman Lou Correa
                            October 29, 2019
    One year ago this month, Congress enacted the first comprehensive 
reauthorization of TSA, known as the ``TSA Modernization Act.'' The Act 
incorporated a substantial number of bills and provisions that 
originated in this committee. It stands as a testament to the 
committee's long-standing bipartisan efforts to conduct oversight of 
TSA. I thank my colleagues Ms. Watson Coleman and Mr. Katko for their 
leadership in advancing legislation last Congress, and I am glad to 
carry on those efforts with Ranking Member Lesko this Congress. The TSA 
Modernization Act enhances and improves our Nation's transportation 
security. The Act is too comprehensive to describe in detail in the few 
minutes I have here, but I'd like to highlight a few key provisions.
    First, the Act established a 5-year term for the TSA administrator 
in an attempt to provide stability to the agency's leadership. 
Unfortunately, the current chaos and leadership vacancies within DHS 
have undermined those efforts. Administrator Pekoske has been forced to 
``wear 2 hats,'' acting as both TSA administrator and DHS deputy 
secretary. I commend the administrator for answering the call to duty, 
but the role of TSA administrator is a full-time job that requires 
full-time dedication to ensuring the security of our transportation 
systems.
    I hope President Trump will nominate permanent leaders to fill the 
many DHS vacancies he has created, and thus provide TSA with the stable 
leadership Congress envisioned when we passed this bill. In addition to 
establishing the administrator's term, the TSA Modernization Act pushes 
TSA to enhance its strategic planning efforts, secure public areas of 
airports and surface transportation systems, and improve the security 
of air cargo transportation. We appreciate TSA's dedication to 
implementing the many directives and reporting requirements in this 
bill, as well as TSA's transparency in updating the committee on its 
progress. However, though TSA has made significant progress on 
implementation overall, I am concerned that TSA has not yet complied 
with provisions that represent some of the committee's biggest 
priorities in the Act.
    First, TSA is late in providing this committee a report on 
recommendations to reform its personnel management system. As you know, 
this subcommittee recently highlighted issues facing the TSA workforce 
at a hearing in May. Transportation Security Officers serve on the 
front lines securing our Nation's transportation systems, yet are among 
the lowest-paid workers in the Federal Government. They are also not 
afforded some of the basic workplace protections that most other 
Government employees enjoy. Improving working conditions for officers 
is key to TSA's evolution as a professional National security agency, 
and I look forward to hearing more about the status of this important 
report.
    Second, TSA is substantially late in providing a strategy that was 
due in February regarding plans to open procurement processes to a 
wider network of technology companies, including increasing 
participation of small businesses. TSA relies on a small number of 
vendors to provide many of the screening technologies in use at 
airports Nation-wide. Small businesses, in particular, face 
difficulties in competing for TSA awards due to limited procurement 
cycles, high costs of certification, and lengthy testing and evaluation 
processes. I look forward to hearing what steps TSA is taking to ensure 
these processes are open and fair for all.
    Finally, TSA is overdue in providing an assessment of potential 
enhancements to surface transportation security. Mass transit and other 
surface transportation systems are particularly vulnerable to terrorist 
attacks, and it is critical that TSA prioritizes completion of these 
requirements. TSA must work to come into full compliance with the 
requirements of the TSA Modernization Act as soon as possible.

    Mr. Correa. With that I would like to turn this 
conversation over to the Ranking Member Lesko for an opening 
statement.
    Mrs. Lesko.
    Mrs. Lesko. Thank you, Mr. Chairman. I want to welcome, as 
well, Representative Dan Bishop from North Carolina.
    Welcome. This is a great committee. You are going to enjoy 
it. Very important.
    I want to thank the witnesses for being here, and the TSA 
officers and other employees that are here from TSA and DHS. 
Thanks for being here and participating.
    I am pleased that this subcommittee is meeting today to 
oversee implementation of last year's bipartisan 
reauthorization of the Transportation Security Administration, 
the TSA Modernization Act.
    Terrorists, of course, continue to target both surface and 
aviation transportation in ways that are constantly evolving. 
The TSA Modernization Act recognizes this reality and provides 
direction to the agency at a critical time.
    Importantly, this legislation marks the first-ever 
reauthorization of TSA since the agency was created in 2001 
following the terror attacks of September 11. In so doing, 
Congress fulfilled its Constitutional role to provide 
oversight, accountability, and direction to the Federal 
Government and the resources appropriated to protect the 
traveling public.
    The TSA Modernization Act took measurable steps to update 
many offices and programs within TSA and make the agency more 
prepared for current and evolving threats to transportation 
security. Some of these provisions included the establishment 
of a 5-year term for the TSA administrator, authorizing the use 
of third-party explosive detection canines for passenger and 
cargo screening, providing additional resources and support to 
the Federal flight deck officer program, and outlining new 
enrollment objectives for TSA PreCheck.
    Now, a little more than 1 year after enactment, it is 
prudent for our subcommittee to echo the bicameral 
bipartisanship that facilitated the passage of this landmark 
legislation as we examine how effectively TSA has worked to 
implement the law.
    I commend Administrator Pekoske, who is currently serving 
doubly as the acting director--acting deputy secretary of the 
Department of Homeland Security, for working closely with 
Congress on this legislation last year, and for his team's 
dedication to providing regular briefings to the relevant 
committees on implementation status. This work, along with 
Congressional oversight, has resulted in 87 percent of the 
law's required actions for TSA being either successfully 
completed, or on track for successful completion in a timely 
manner.
    For many of these provisions, GAO serves as the committee's 
watchdog on implementation in its review of TSA programs, 
offices, and security mitigation efforts. So I am pleased that 
they are represented here today, as well.
    I look forward to hearing from TSA and GAO today on the 
status of outstanding provisions in the law, as well as what 
the agency has accomplished over the last year in fulfilling 
its statutory requirements.
    [The statement of Ranking Member Lesko follows:]
                            October 29, 2019
                Statement of Ranking Member Debbie Lesko
    I am pleased that the subcommittee is meeting today to oversee 
implementation of last year's bipartisan reauthorization of the 
Transportation Security Administration, the TSA Modernization Act. 
Terrorists continue to target both surface and aviation transportation 
in ways that are constantly evolving. The TSA Modernization Act 
recognizes this reality and provides direction to the agency at a 
critical time.
    Importantly, this legislation marks the first-ever reauthorization 
of TSA since the agency was created in 2001, following the terror 
attacks of September 11. In so doing, Congress fulfilled its 
Constitutional role to provide oversight, accountability, and direction 
to the Federal Government and the resources appropriated to protect the 
traveling public.
    The TSA Modernization Act took measurable steps to update many 
offices and programs within TSA and make the agency more prepared for 
current and evolving threats to transportation security. Some of these 
provisions included the establishment of a 5-year term for the TSA 
administrator, authorizing the use of third-party explosive detection 
canines for passenger and cargo screening, providing additional 
resources and support to the Federal Flight Deck Officer program, and 
outlining new enrollment objectives for TSA PreCheck.
    Now, a little more than 1 year after enactment, it is prudent for 
our subcommittee to echo the bicameral bipartisanship that facilitated 
the passage of this landmark legislation as we examine how effectively 
TSA has worked to implement the law.
    I commend Administrator Pekoske, who is currently serving doubly as 
the acting deputy secretary of the Department of Homeland Security, for 
working closely with Congress on this legislation last year and for his 
team's dedication to providing regular briefings to the relevant 
committees on implementation status. This work, along with 
Congressional oversight, has resulted in 87 percent of the law's 
required actions for TSA being either successfully completed or on 
track for successful completion in a timely manner.
    For many of these provisions, GAO serves as the committee's 
watchdog on implementation in its review of TSA programs, offices, and 
security mitigation efforts, so I am pleased that they are represented 
here today.
    I look forward to hearing from TSA and GAO today on the status of 
outstanding provisions in the law, as well as what the agency has 
accomplished over the last year in fulfilling its statutory 
requirements. Thank you, and I yield back the balance of my time.

    Mrs. Lesko. Thank you. I yield back the balance of my time, 
Mr. Chairman.
    Mr. Correa. Thank you, Mrs. Lesko.
    Other Members of the subcommittee are reminded that, under 
the committee rules, opening statements may be submitted for 
the record.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                            October 29, 2019
    A year after enactment, it seems appropriate to look closely at the 
Transportation Security Administration's implementation of the TSA 
reauthorization legislation. The TSA Modernization Act included 
important provisions that this committee championed, including many 
Democratic priorities that were included although we were in the 
Minority when the bill passed. Among them was my bill, the TSA OPEN for 
Business Act, which will improve the agency's partnership with small 
businesses, ensure procurement activities are open to all, and 
diversify the marketplace.
    Also included was my Air Cargo Security Improvement Act, which will 
evolve TSA's cargo security efforts by reestablishing a dedicated cargo 
security office, directing reviews of cargo security programs, and 
requiring a pilot of new cargo screening technologies. Another key 
provision was the requirement for TSA to convene a working group with 
labor representatives to work on reforms to TSA's personnel management 
system, since Transportation Security Officers do not receive the same 
basic workplace rights and protections afforded to most other Federal 
employees. The Act also highlights surface transportation security as a 
significant area of focus, directing a study of new technologies and a 
survey of transit agencies' operational needs. I thank TSA for its 
efforts to implement the agency's first-ever reauthorization, a complex 
law with a large number of provisions. I appreciate TSA's commitment to 
transparency and providing this committee regular updates.
    However, although on paper TSA estimates nearly 60 percent of 
requirements are completed, many of those counted are provisions that 
codified existing activities, and many others were relatively minor. 
When it comes to some of the key provisions and priorities of this 
committee, there is much work left to do. Important reports and 
notifications are late--including on each of the critical topics I've 
described. I look forward to hearing from TSA how they plan to meet 
their responsibilities under the law.

    Mr. Correa. I want to welcome the panel of witnesses.
    Our first witness, Ms. Patricia Cogswell, is the acting 
deputy administrator for TSA. Prior to joining TSA, Ms. 
Cogswell held several leadership positions within the U.S. 
Immigration and Customs Enforcement and DHS, including as 
acting under secretary for DHS intelligence and analysis.
    Our next witness, Mr. William Russell, is a director at the 
Government Accountability Office, GAO's homeland security and 
justice team, where he is responsible for leading GAO's work on 
aviation and surface transportation security. Mr. Russell has 
over 17 years of experience at GAO, and was previously an 
assistant director in GAO's contracting and National security 
acquisitions team.
    Without objection, the witnesses' full statements will be 
inserted in the record. Now I ask each witness to summarize 
their statements for 5 minutes, beginning with Ms. Cogswell.
    Welcome, ma'am.

      STATEMENT OF PATRICIA F.S. COGSWELL, ACTING DEPUTY 
  ADMINISTRATOR, TRANSPORTATION SECURITY ADMINISTRATION, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Ms. Cogswell. Good morning, Chairman Correa, Ranking Member 
Lesko, and distinguished Members of this committee. On behalf 
of TSA's employees, I want to express our appreciation for the 
continued support of Congress, the productive relationship we 
have with this subcommittee, and as well with the Government 
Accountability Office, as well as the authorities provided by 
the TSA Modernization Act of 2018.
    Implementing the TSA Modernization Act is a priority for 
TSA. I am grateful for the invitation to testify about our 
efforts to execute these authorities.
    Since its creation following the September 11 attacks, 
TSA's on-going commitment to ensuring transportation security 
has enabled public and commerce to continue traveling securely 
and freely. Eighteen years later, the reality is that 
transportation systems remain highly-valued targets for 
terrorists, and their methods of attack are more decentralized 
and opportunistic than ever. TSA must meet the challenge of a 
pervasive and constantly-evolving threat environment in both 
the cyber and physical realms.
    In meeting this challenge, TSA's most important asset is 
its people. I am very proud of the 63,000 dedicated 
professionals who make up our work force and every day 
demonstrate our core values of integrity, respect, and 
commitment. Together, the efforts of our work force secures and 
facilitates transportation for an average of 85 million 
passengers, 2.56 billion in cargo, and critical transportation 
infrastructure around the country.
    Earlier this year a significant portion of our work force 
went without pay for 35 days during the partial Government 
shutdown. Despite suffering financial and personal hardships, 
they demonstrated true professionalism and commitment to the 
transportation security mission. We are grateful to Congress 
for continuing to explore ways to prevent this from happening 
again, and stand ready to help you in achieving this goal.
    2018 was a very important year for TSA and its direction. 
Not only did we release our strategy and administrator's 
intent, highlighting our strategic priorities and improving 
security and safeguarding the transportation system, 
accelerating action, and committing to our people, but the TSA 
Modernization Act became law, the first reauthorization of our 
agency.
    2019 has been the year of implementation. We have conveyed 
through 8 progress meetings with this committee--subcommittee 
staff that, as of today, TSA has implemented more than 60 
percent of the 180 requirements mandated by the Act, and 72 
percent of those with specific deadlines. Completed 
requirements include conducting a global aviation security 
review, creating an air cargo division, establishing a surface 
transportation security advisory committee, initiating a pilot 
program to test CT Technology for air cargo, executing an 
automated exit lane technology pilot program in Phoenix Mesa 
Airport.
    Additionally, consistent with the TSA Modernization Act, 
requirements to grow TSA PreCheck enrollment and limit the use 
of PreCheck lanes to those with known traveler numbers, we 
successfully conducted 2 pilots, both ensuring the feasibility 
and throughput for TSA use of PreCheck-only lanes, as well as 
the future lane experience model where non-PreCheck passengers 
designated as lower risk would receive alternative screening 
procedures.
    Continuing to evaluate risk in assessing technology, 
policy, and procedures in place to address that risk is 
critical to our mission execution. Recent examples of where we 
have done so consistent with the Modernization Act include 
updating the Federal Air Marshal concept of service--concept of 
operation through prioritized mission deployment strategy 
focused on high-risk travelers, and revised international risk 
assessment models, as well as implementing changes to address 
insider risk, including establishing an Aviation Security 
Advisory Committee Subcommittee on Insider Threat to assess 
ways to improve airport worker controls.
    Building on this critical work, TSA plans to produce a road 
map for mitigating insider risk in all modes of transportation.
    TSA also recognizes our strategic success depends on our 
work force. TSA commissioned a blue ribbon panel of public and 
private-sector human capital experts to review TSA's human 
capital policy and policy processes, and re-established our 
National Advisory Council, which is comprised of advisors from 
our uniformed work force. Through recommendations from these 
groups and others, TSA developed a number of work force 
initiatives that we are now implementing, such as our two-tier 
performance system, our model officer recognition program, and 
our TSA career progression.
    Chairman Correa, Ranking Member Lesko, and Members of the 
subcommittee, thank you for this opportunity to testify you--
before you today. TSA is grateful for the authorities provided 
through the Modernization Act, and is committed to implementing 
them as quickly as possible. I look forward to your questions.
    [The prepared statement of Ms. Cogswell follows:]
              Prepared Statement of Patricia F.S. Cogswell
                            October 29, 2019
    Good morning Chairman Correa, Ranking Member Lesko, and 
distinguished Members of the subcommittee. On behalf of all TSA 
employees, I'd like to express our appreciation for the continued 
support of Congress, the productive relationship we have with this 
subcommittee, and the authorities provided through the TSA 
Modernization Act of 2018, the first reauthorization of our critical 
security agency. Thank you for inviting me to testify about our 
implementation of the TSA Modernization Act and the work we are doing 
to keep the Nation's transportation system secure.
    TSA was created in the wake of the September 11 attacks and through 
the Aviation and Transportation Security Act of 2001 was charged with 
the mission of protecting the Nation's transportation system to ensure 
the freedom of movement for people and commerce. Much has changed since 
then, but our fundamental mission has not, nor has our most important 
asset--our people.
    I am extremely proud of the 63,000 dedicated professionals who 
comprise TSA's workforce, who demonstrate our core values of integrity, 
respect, and commitment and provide security for our transportation 
systems each and every day. Together, the efforts of our workforce 
secures and facilitates the transportation for a daily average of 85 
million passengers, cargo, and industry with daily revenues totaling 
over $2.56 billion, and critical transportation infrastructure across 
the country. Exemplary of their dedication to the mission, earlier this 
year Transportation Security Officers (TSOs), Federal Air Marshals, 
vetting and intelligence personnel, Transportation Security Inspectors, 
canine handlers, and support staffs worked for 35 days without pay 
under extraordinarily challenging circumstances during the lapse in 
appropriations--despite suffering personal financial hardship. Although 
TSA was able to leverage the flexibility provided by our authorities 
and appropriations to use prior year carry-over funding to provide a 
small portion to our workforce, the impact was real. In fact, our 2019 
Federal Employee Viewpoint Survey (FEVS) results reflected that nearly 
44 percent of our workforce indicated the partial Government shutdown 
had a ``very negative'' or ``extremely negative'' impact on their 
everyday work, while an additional 39 percent characterized it as a 
``moderately negative'' or ``slightly negative'' effect. We are hopeful 
that such circumstances can be avoided in the future and look forward 
to working with Congress to develop solutions.
    The U.S. transportation system accommodates approximately 965 
million domestic and international aviation passengers annually--this 
equates to the screening of 2.8 million passengers, 1.4 million checked 
bags, and 5.1 million carry-on bags each day. In surface 
transportation, there are more than 10.1 billion passenger trips on 
mass transit per year, approximately 600 million passengers traveling 
over-the-road buses each year, and more than 1 million hazardous 
material shipments on trucks every day. Beyond those usage numbers 
associated with a relatively open network of transportation modes, the 
physical scope of the system encompasses approximately 138,000 miles of 
railroad tracks; 4.2 million miles of highway; 616,000 highway bridges; 
503 road tunnels; and nearly 2.7 million miles of pipeline.
    Although the scope of our transportation system is significant, it 
is critically important from a planning and execution perspective to 
also recognize that demands are increasing. For instance, the last 12 
months represent the highest volume of air travelers in the agency's 
history, and we just completed the busiest summer travel season ever, 
screening more than 262 million aviation passengers and crew between 
Memorial Day and Labor Day. These increased numbers will likely 
continue as the aviation industry estimates anticipated annual growth 
of 4.5 percent for passenger travel and 2.5 percent for cargo over the 
next 20 years. Thanks in part to the support of Congress, TSA has been 
able to take measures to address the recent increases in volume, with 
current staffing levels at 2,100 more full-time employees than last 
year as well as a 20 percent increase in the allocation of overtime to 
ensure airports have the flexibility to schedule officers during peak 
times.
    Today, aviation and transportation hubs remain highly-valued 
targets for terrorists. Adversaries whose methods of attack, which now 
includes the potential use of unmanned aircraft systems (or drones), 
are more decentralized and opportunistic than ever before. The reality 
for TSA is that every day we are challenged by a pervasive and evolving 
threat environment, both in the physical and cyber realms. We are 
constantly working to address these challenges and recognize that we 
must both ensure we are effectively countering known threats, while 
investing in analysis, research, and development to prepare for the 
threats of the future, including changes to improve our people, 
procedures, and technology.
    TSA's continued success is contingent upon our ability to rise to 
the challenge of outmatching dynamic threats to our aviation and 
surface transportation systems and doing so within the parameters of 
increasing demand--and, importantly, our fiscal environment. We are 
grateful to Congress for the support it has provided for us to execute 
our mission. Implementing the TSA Modernization Act is a priority for 
the Agency. TSA, through its leadership corps and organizational 
structure, has implemented more than 58 percent of the 180 requirements 
contained within the TSA Modernization Act and continues its efforts to 
execute those that remain. As part of our implementation approach, in 
the last year we have provided 8 regular status updates on all 
requirements, including communicating challenges associated with 
carrying out Congressional direction.
    The authorities provided by the TSA Modernization Act of 2018 have 
provided more flexibility for meeting the challenges the agency faces 
today. Our Nation relies on the professionals at TSA, and across both 
the domestic and international transportation community, to protect 
passengers and commerce traveling to and within the United States. 
Securing the Nation's transportation system, which is complex, 
expansive, and interdependent, requires a collective effort; it is not 
something that the Government can accomplish alone. To that end, TSA 
recognizes the critical importance of partnering with stakeholders in 
developing transportation security solutions. For instance, pursuant to 
the TSA Modernization Act, we are currently working with Phoenix-Mesa 
Airport to collect and analyze data associated with automated exit lane 
technology.
    We are also pleased to immediately use the authority provided by 
the TSA Modernization Act to establish a Surface Transportation 
Security Advisory Committee, which was established in April and held 
its second meeting last week. TSA is grateful for the invaluable 
insights provided by this new committee as well as continued support 
and collaboration we receive from stakeholders through the Aviation 
Security Advisory Committee, DHS Critical Infrastructure Partnership 
Advisory Committee's Transportation Systems Sector Coordinating, and 
other forums. The discussions, feedback, and input provided by those 
entities, as well as new working groups we established pursuant to the 
TSA Modernization Act--focused upon explosives detection, canine 
capacity, and public area security--are facilitating formal and regular 
information sharing between transportation stakeholders and the 
development of best practices and guidance for countering determined 
adversaries.
    Resiliency is reflected in TSA's people, structure, and doctrine. 
As required by the Modernization Act, we conducted an overarching 
efficiency review of the organization, better aligned our structure to 
improve how we execute our surface transportation security, elevated 
our vetting and air cargo missions, and performed comprehensive reviews 
of our personnel system. These efforts, along with Congress 
establishing a 5-year term for the administrator, have placed TSA on a 
sound course for years to come.
    The TSA Strategy, which mirrors the TSA Modernization Act's 
emphasis on enhancing security technology and risk-based decision 
making, ensures our focus on capability innovation and threat-informed, 
information-driven operations. The Administrator's Intent explains how 
we will execute the Strategy through 2020. The TSA Strategy and 
Administrator's Intent detail how we will accomplish them. Both 
documents are posted on our website for public review and transparency. 
In our Strategy, we list 3 priorities: Improve security and safeguard 
the transportation system; accelerate action; and commit to our people. 
These priorities reflect TSA's focus on preserving front-line 
operations, quickly transitioning to new solutions and capabilities, 
and creating efficiencies to optimize limited resources.
        improve security and safeguard the transportation system
    TSA's operational environment requires robust partnerships and 
effective security operations across all modes of transportation. We 
strive to strengthen our operational approach through a proficient and 
professional workforce, more effective threat detection capabilities, 
enhanced intelligence and vetting, and better communication and 
coordination with stakeholders. Simultaneously, we also strive to 
improve the passenger experience.
    When Administrator Pekoske testified before this subcommittee 
earlier this year, he explained the efforts TSA was taking to rapidly 
test computed tomography (CT) screening systems and expand their use at 
airport checkpoints. CT technology allows TSA officers to more easily 
identify potential threats in a less invasive way, and eventually may 
eliminate the need for passengers to remove liquids, electronics, and 
food items from carry-on passenger bags. This technology enhances the 
effectiveness of TSA's security screening process and improves the 
passenger experience. Thanks to the support of Congress, TSA recently 
awarded a contract for 300 CT units. The deployment of this technology 
along with Credential Authentication Technology (CAT), which identifies 
documents that are fraudulent or have been tampered with as well as 
providing our officers direct access to individual passenger vetting 
results, is transforming the effectiveness and efficiency of our 
checkpoint screening process.
    TSA has explored a number of other ways to improve performance, 
manage risk, and use resources more effectively. Consistent with the 
TSA Modernization Act requirement to limit the use of TSA PreCheck 
lanes to only individuals with Known Traveler Numbers, which represents 
approximately 20 percent of passengers traveling through our Nation's 
airports each day, we successfully conducted pilots at 2 airports, 
demonstrating that TSA can achieve higher throughput for ``pure 
PreCheck'' lanes. In addition, we also sought to test our Future Lane 
Experience (FLEx) model at 2 airports to assess throughput when we 
provide alternate procedures for processing passengers identified as 
lower risk; this screening is not as streamlined as what a TSA PreCheck 
member would receive but is more efficient than standard processing. 
CAT units are integral to further expanding these initiatives.
    Similarly, TSA conducted joint pilots with U.S. Customs and Border 
Protection (CBP), using the facial recognition system and photo 
galleries CBP built to meet its biometric entry-exit program mandate, 
to assess how facial recognition technologies could be used to 
potentially automate Travel Document Checker (TDC) functions at our 
checkpoint. TSA recently conducted a pilot program at Las Vegas 
McCarran Airport, adding an automated facial matching capability to 
existing CAT systems to assess operational effectiveness for matching a 
traveler's image to the photo on the ID they present to the officer at 
the TDC. In carrying out these efforts, which are designed to find ways 
to both improve security effectiveness and enhance the passenger 
experience, TSA is committed to ensuring appropriate privacy and data 
protections are in place. Building upon the biometrics report DHS 
submitted to Congress earlier this year, we are currently working with 
DHS Science and Technology Directorate to analyze data derived from the 
Las Vegas pilot to evaluate camera system and system matching 
performance and assess any variation in biometric performance based on 
the reference image source.
    Looking abroad, for the last 2 years, TSA has implemented enhanced 
security requirements for all commercial flights to the United States. 
Those measures include enhanced screening of passengers and electronic 
devices and heightened security standards for aircraft and airports. 
These new security measures have been implemented at 283 last-point-of-
departure airports in 106 countries. These airports service 
approximately 338 U.S. and foreign airlines, transporting an average of 
375,000 passengers on 2,100 flights daily. While those actions are 
effective in the near term, TSA is focused on raising the global 
baseline for aviation security through long-term partnerships and 
cooperation. As mandated by the TSA Modernization Act, earlier this 
year TSA conducted a Global Aviation Security Review. Through that 
process, we identified a number of best practices related to enhancing 
collaboration with foreign partners on aviation security capacity and 
performed focused audit visits to determine compliance with TSA 
Security Directives/Emergency Amendments. TSA is using that review to 
advance the improvement of international aviation security standards 
for passengers.
    TSA also continues to improve air cargo security. Earlier this 
year, per the TSA Modernization Act, TSA established an air cargo 
division, reviewed the effectiveness of the certified cargo screening 
program, and conducted a feasibility study of the potential use of CT 
systems for screening air cargo. Consistent with the TSA Modernization 
Act requirement as well as the results of that study, TSA has initiated 
a pilot program with an all-cargo entity to test the effectiveness of 
CT for screening in such a setting. As threats continue to evolve, TSA, 
in cooperation with partners world-wide, will work to improve 
intelligence sharing and standardize best practices, while also 
pursuing technological security advancements.
    In addition to our aviation passenger screening mission, TSA 
continues to oversee the security of the surface transportation system. 
On a daily basis, TSA assists surface stakeholders by conducting 
vulnerability assessments, analyzing security programs across the 
surface sector--from pipelines, to mass transit, to freight rail, to 
over-the-road bus entities--providing training and exercise support, 
sharing intelligence information, and executing collaborative law 
enforcement and security operations--such as those operations conducted 
by the Visual Intermodal Prevention and Response (or VIPR) teams. Since 
December 2018, TSA, in partnership with the Cybersecurity and 
Infrastructure Security Agency (CISA), has conducted 4 Validated 
Architecture Design Reviews, which are in-depth cybersecurity 
assessments, at select pipeline companies and has 4 additional 
assessments scheduled. We also conducted 18 intermodal security 
exercise training programs (I-STEP) exercises this past fiscal year to 
evaluate and enhance the preparedness level of the Nation's surface 
transportation modes. In an effort to improve the support and services 
we provide, over the last several months TSA has elevated the Surface 
Operations leadership position, realigned resources to focus on surface 
inspections, established the Surface Transportation Security Advisory 
Committee, and distributed a survey to more than 3,000 surface 
transportation stakeholders to better assess their needs.
    Finally, TSA continues to work to address current and evolving 
threats by looking at emerging technologies, including from outside the 
transportation environment, to assess how they might be applied in the 
surface transportation environment. Through the process of establishing 
operational test beds, TSA works with surface transportation owners and 
operators to develop and deploy technology solutions to advance 
security for different modes of transportation (mass transit, highway 
motor carrier, pipeline, and freight rail). While TSA does not procure 
the technology for surface transportation operators and owners, the 
test bed approach assists with development of their technology 
requirements, helps inform their acquisition decisionmaking process, 
and enables TSA to share the results of the testing in various 
technology forums. As an example of how the test bed approach assists 
stakeholders, Los Angeles Metro used results from its test bed 
partnership with TSA last year to support its application for a 
Transportation Security Grant to procure state-of-the-art stand-off 
explosives detection systems. These systems are in service, helping to 
secure the LA Metro system from terrorist threats.
                           accelerate action
    In many ways, 2019 represents a year of implementation of a number 
of initiatives that TSA accelerated last year--specifically, deployment 
of both CT and CAT technology at the checkpoints. This year has also 
included a renewed focus on developing the next generation of Advanced 
Imaging Technology (AIT) devices. TSA is currently partnering with the 
DHS Science and Technology Directorate, the Department of Energy, and 
security stakeholders to assess next generation enhanced AIT systems. 
Through providing automated target algorithms with more data, these 
systems should increase detection performance and reduce potential 
false alarms without compromising an individual's privacy. TSA will 
also continue to conduct airport trials of alternative AIT solutions 
designed to reduce processing times and improve performance accuracy.
    By embracing emerging technologies, leveraging agile processes, and 
facilitating collaboration, TSA is positioning itself to keep pace with 
industry partners while advancing security across all modes of 
transportation. To that end, TSA has formalized a strategic management 
process that aligns strategy and policy to operations by leveraging 
risk assessment capabilities to inform budgeting and investment 
decisions. We used this approach in the development of the TSA fiscal 
year 0-24 Capital Investment Plan that was submitted to Congress 
earlier this year pursuant to the TSA Modernization Act requirement.
    Additionally, consistent with the direction of the TSA 
Modernization Act, TSA conducted a review of advanced security 
screening technology testing and evaluation, acquisitions, and 
procurement practices within TSA and, among other things, assessed how 
it can further encourage innovation and competition among technology 
stakeholders, including through increased participation of and funding 
for small business concerns. Through TSA's Innovation Task Force Broad 
Agency Announcement, we solicited solutions to 9 different problem 
statements related to issues ranging from alarm resolution to identity 
verification to automated security design. In response to that request, 
TSA received 85 total submissions from 104 unique vendors, 55 percent 
of which had never responded to a TSA solicitation before, and 72 
percent that had never contracted with TSA. Of the 12 solutions that 
were ultimately selected for demonstration in an operational 
environment, 7 were provided by small businesses. In fiscal year 2019, 
over $460 million of TSA's $1.87 billion of funding available for 
contracts, or 24.5 percent, was obligated to small businesses, 
exceeding our established small business goal of 23 percent for the 
year. Finally, on October 11, 2019, TSA announced the opening of a 
window for the qualification of vendor CT systems under the Checkpoint 
Property Screening System (CPSS) program. The notice also advises 
industry that resulting solicitations for qualified systems may include 
set asides for a portion of CPSS requirements.
                          commit to our people
    TSA recognizes that our strategic success depends upon our 
workforce. Our priority to Commit to Our People focuses on our ability 
to attract, hire, train, develop, promote, and equip our workforce at 
all levels of the organization. TSA commissioned a Blue-Ribbon Panel 
comprised of public and private-sector leaders with extensive human 
capital expertise to conduct a full review of the human capital service 
policy and delivery at TSA, including TSO pay and compensation, to 
identify ways we can improve as an organization. Among a number of 
findings, the Panel reaffirmed that TSA's authorizing statute, the 
Aviation and Transportation Security Act (ATSA), provides TSA with 
greater authority and flexibility to manage our workforce than the 
Title 5 General Schedule. Working within that authority, TSA currently 
has a number of initiatives under way that are designed to enhance our 
ability to compete as an employer and attract and retain talent.
  <bullet> Two-Tier Performance System.--Based upon input from our 
        workforce, we determined that the way we had implemented our 
        multi-tier performance system was placing significant paperwork 
        burdens on our employees and supervisors without providing 
        meaningful distinctions between employees or benefits for their 
        professional development. Beginning this month, TSA shifted to 
        a simpler two-tier system for the screening workforce (e.g., 
        meets standards/does not meet standards) that will streamline 
        the process and significantly reduce subjectivity.
  <bullet> Model Officer Recognition.--Also earlier this month, TSA 
        announced a new program that provides the agency with a 
        mechanism to better recognize its top officers for the work 
        they are doing throughout the year with monetary and non-
        monetary awards for special acts as well as pay increases.
  <bullet> TSO Career Progression.--This initiative provides a clearly-
        defined and transparent career path for uniformed officers with 
        pay increases tied to enhanced skills and training. The first 
        phase of TSO Career Progression was implemented in August 2018, 
        and TSA has updated and rolled out 6 new training classes this 
        past year.
    Over the last few years, TSA has seen significant improvements in 
the results of the annual FEVS. While we are proud of the advancements 
reflected through the FEVS, we realize that as an Agency we must 
continue to innovate and compete as an employer to ensure our workplace 
attracts, keeps, and develops great personnel. We are confident that 
the actions we have taken to improve employee communications with 
senior leadership through reestablishing the National Advisory Council 
and creating uniformed advisors to the administrator, as well as the 
initiatives noted previously, will advance our efforts toward that 
goal.
                               conclusion
    TSA is grateful for the authorities provided through the TSA 
Modernization Act and is committed to implementing its requirements as 
quickly as possible while executing our strategic priorities. While 
those goals are ambitious, they are necessary to stay ahead of 
persistent, determined adversaries while also preserving individual 
freedoms and the benefits of an open, efficient transportation system. 
TSA was created in the aftermath of the September 11, 2001, attacks on 
our homeland, and we are resolute in our desire to ensure that a 
similar event never occurs in the future. We are confident that through 
vigilance, collaboration with domestic and international partners, and 
the continued support of Congress and all of our stakeholders, such an 
attack will not occur on ``Our Watch.''
    Chairman Correa, Ranking Member Lesko, and Members of the 
subcommittee, thank you for the opportunity to testify before you 
today. I am honored to serve in this capacity along with the dedicated 
men and women of TSA. I look forward to your questions.

    Mr. Correa. Thank you very much, Ms. Cogswell.
    I would like to recognize Mr. Bill Russell to summarize his 
statement in 5 minutes.
    Sir.

 STATEMENT OF WILLIAM RUSSELL, DIRECTOR, HOMELAND SECURITY AND 
           JUSTICE, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Russell. Good morning, Chairman Correa, Ranking Member 
Lesko, and Members of the subcommittee. I am pleased to be here 
today to discuss TSA progress to implement the TSA 
Modernization Act.
    As you know, the Act included provisions intended to, among 
other things, improve aviation security, screening 
technologies, oversight of passenger screening processes, and 
surface transportation.
    The Act also included a number of provisions for GAO to 
review TSA's progress.
    This statement summarizes past work and observations from 
some of our on-going work in assessing TSA's actions for 
selected areas.
    Overall, this body of GAO work shows that TSA has made 
progress consistent with provisions under the Act, but can 
improve in a number of areas.
    First, in terms of international aviation security, TSA 
took steps to strengthen assessments of foreign airport 
operators. For example, since our December 2017 report, TSA 
further enhanced its foreign airport assessments by capturing 
better data on vulnerabilities so they can be effectively 
mitigated.
    In addition, the Act included a provision for GAO to review 
security directives for airports in foreign countries that 
offer last-point-of-departure flights to the United States. TSA 
may revise or issue new security directives for domestic air 
carriers, and emergency amendments for foreign air carriers 
when threat information or vulnerabilities at foreign airports 
indicate an immediate need for air carriers to implement 
additional security measures.
    In our review of this process, we found the TSA did not 
fully define how to coordinate with industry representatives 
prior to updating directives, which can lead to some 
difficulties in implementing needed changes.
    TSA had also not yet fully determined whether to cancel or 
incorporate many long-standing security directives into air 
carriers' security programs in full accordance with TSA policy. 
We made several recommendations to address these issues, and 
TSA concurred with them.
    The Modernization Act also included provisions related to 
oversight of passenger screening rules. TSA developed screening 
rules by considering current intelligence and other factors to 
identify passengers who may require enhanced screening. In our 
forthcoming report we found that oversight of this process has 
improved. TSA coordinates rule reviews through quarterly 
meetings, and notifies an expanded set of DHS and TSA 
stakeholders of rule changes, as called for under the Act.
    We also found that, while TSA tracks some data related to 
rule implementation, it does not comprehensively measure rule 
effectiveness. We recommended that TSA explore additional data 
sources for better measuring the effectiveness of these rules. 
TSA is currently reviewing this recommendation.
    In terms of screening technologies, we reviewed the process 
used by TSA to deploy those technologies to airports, and in 
our forthcoming report we found that TSA considers risks in its 
deployment decisions, but has not fully documented them.
    Importantly, we also found that, after screening 
technologies have been deployed to airports, TSA does not fully 
ensure that these technologies continue to meet detection 
requirements, even though performance of that technology can 
degrade over time. We made several recommendations to address 
these issues, and TSA is currently reviewing them.
    Per the Act, we also reviewed TSA pipeline security 
efforts. We found that TSA's management of key aspects of its 
pipeline security can be improved, although coordination with 
pipeline operators is good. For example, TSA needs to better 
evaluate the number of staff and resources that it devotes to 
pipeline security, and to include a strategic work force plan 
that can help it effectively identify the skills and 
competencies, such as cybersecurity expertise, necessary to 
carry out responsibilities. TSA concurred with those 
recommendations to address the issues, and has efforts under 
way.
    In conclusion, TSA has taken important steps to improve 
security and response--Modernization Act, but additional 
actions will be needed, going forward, and we will continue to 
review TSA progress to implement these remaining portions of 
the Act.
    Chairman Correa, Ranking Member Lesko, this concludes my 
prepared remarks, and I look forward to your questions.
    [The prepared statement of Mr. Russell follows:]
                 Prepared Statement of William Russell
                            October 29, 2019
                             gao highlights
    Highlights of GAO-20-225T, a testimony before the Subcommittee on 
Transportation and Maritime Security, Committee on Homeland Security, 
House of Representatives.
Why GAO Did This Study
    Threats to the Nation's transportation systems persist and continue 
to evolve. Within DHS, TSA is the Federal agency with primary 
responsibility for the prevention of and defense against terrorist and 
other threats to the United States' civil aviation, and rail, public 
transit, pipeline, and other surface transportation systems. The TSA 
Modernization Act includes provisions intended to enhance security 
across this broad range of systems and further called on GAO to review 
TSA's progress in these areas.
    This statement summarizes past and on-going work related to TSA's 
actions to address selected aviation and surface transportation 
security areas covered by the TSA Modernization Act. This statement is 
based on products GAO issued from December 2017 through October 2019 
and draft reports with TSA for comment.
    To perform this work GAO reviewed TSA program documents, visited 
domestic and foreign airports, and interviewed TSA officials, DHS 
officials, and transportation industry stakeholders, including 
associations and air carriers.
What GAO Recommends
    GAO has made recommendations designed to address the challenges 
discussed in this statement. TSA concurred with recommendations from 
prior work and is currently reviewing recommendations from our draft 
reports, including those regarding passenger screening rules and 
aviation screening technologies.
transportation security.--tsa has taken steps to improve security areas 
  identified in the tsa modernization act, but additional actions are 
                                 needed
What GAO Found
    The Department of Homeland Security's (DHS) Transportation Security 
Administration (TSA) has made initial progress in certain security 
areas mandated by the TSA Modernization Act, but additional actions are 
needed.
  <bullet> International aviation security.--In December 2017, GAO 
        reported that TSA has taken steps to enhance its foreign 
        airport assessments. Since that time, TSA has developed a tool 
        to better track and address foreign airport vulnerabilities. In 
        addition, TSA reviews security directives and emergency 
        amendments it issues to address security concerns. However, 
        TSA's review process does not fully define how to coordinate 
        with industry representatives and it has not determined if it 
        is appropriate to incorporate the security measures of many 
        long-standing directives into air carrier security programs in 
        accordance with TSA policy. In October 2019, GAO recommended, 
        and TSA officials agreed, that TSA better define how to 
        coordinate with air carriers when reviewing directives and when 
        to incorporate directives into security programs.
  <bullet> Passenger screening rules.--TSA develops screening rules by 
        considering current intelligence and other factors to identify 
        passengers who fall within the scope of the rules for enhanced 
        screening. GAO found that TSA coordinates rules reviews through 
        quarterly meetings and notifies an expanded set of DHS and TSA 
        stakeholders of rule changes as called for by the Act. TSA 
        tracks some data on rule implementation but does not 
        comprehensively measure rule effectiveness. In its draft 
        report, GAO recommended that TSA explore additional data 
        sources for measuring the effectiveness of its rules. TSA is 
        currently reviewing this recommendation.
  <bullet> Aviation screening technologies.--GAO found that TSA does 
        not ensure that screening technologies continue to meet 
        detection requirements after they have been deployed to 
        airports. According to officials, the agency uses 
        certification--a step in the test and evaluation process--to 
        confirm that technologies meet detection requirements before 
        they are deployed to airports, and calibration of the 
        technologies to confirm that technologies are at least 
        minimally operational while in use at airports. While these 
        processes serve important purposes, performance can degrade 
        over time. In its draft report, GAO recommended that TSA 
        implement a process to ensure technologies continue to meet 
        detection requirements after deployment. TSA is currently 
        reviewing this recommendation.
  <bullet> Surface transportation pipeline security.--In December 2018, 
        GAO identified some weaknesses and made recommendations to 
        strengthen TSA's management of key aspects of its pipeline 
        security program. For example, TSA does not have a strategic 
        workforce plan to help ensure it identifies the skills and 
        competencies--such as the required level of cybersecurity 
        expertise--necessary to carry out its pipeline security 
        responsibilities. GAO recommended, and TSA concurred, that TSA 
        develop a strategic workforce plan. As of October 2019, TSA has 
        not yet fully addressed this recommendation. We will continue 
        to monitor progress.
    Chairman Correa, Ranking Member Lesko, and Members of the 
subcommittee: Thank you for the opportunity to discuss our work on the 
Transportation Security Administration's (TSA) actions to implement the 
TSA Modernization Act.\1\ Within the Department of Homeland Security 
(DHS), TSA is the Federal agency with primary responsibility for the 
prevention of and defense against terrorist and other threats to the 
United States' transportation systems. Threats to the transportation 
system persist and continue to evolve. For example, in March 2017, TSA 
imposed new screening measures to enhance aviation security after 
intelligence agencies confirmed that terrorist organizations had the 
capability to plant explosives in personal electronic devices, such as 
laptops.
---------------------------------------------------------------------------
    \1\ The TSA Modernization Act was enacted as part of the FAA 
Reauthorization Act of 2018. Pub. L. No. 115-254, div. K, tit. I, 132 
Stat. 3186, 3542 (2018).
---------------------------------------------------------------------------
    The TSA Modernization Act includes provisions intended to, among 
other things, improve screening technologies, streamline the passenger 
screening process, mandate more rigorous background checks of airport 
workers, strengthen airport access controls, increase passenger 
checkpoint efficiency and operational performance, enhance security in 
public areas of airports, and improve surface transportation 
stakeholder coordination. The Act also included provisions for GAO to 
review TSA's progress in a number of these areas.
    This statement summarizes past work and preliminary observations of 
our on-going work on TSA's actions to improve aviation and surface 
transportation security in select areas mandated by the TSA 
Modernization Act (the Act). This statement is based partly on 5 
reports we issued from December 2017 through October 2019 on 
international aviation and pipeline security. In addition, this 
statement discusses key findings based on 3 draft reports regarding 
passenger screening rules, surface transportation, and passenger and 
checked baggage screening technology--which are currently with TSA for 
comment. Further, this statement includes preliminary observations from 
our on-going review of the security of airport public areas.
    To perform work for our prior reports and draft reports with TSA 
for comment, we examined TSA program documents, visited domestic and 
foreign airports, and interviewed TSA officials, DHS officials, and 
transportation industry stakeholders, including associations and air 
carriers. Further details on our scope and methodology are available 
within each of our published products. In addition, we regularly 
followed up with relevant officials to solicit updated information on 
agency actions taken in response to our recommendations. For our on-
going work on the security of public areas, we reviewed and analyzed 
the best practices and recommendations cited in the 2017 Public Area 
Security National Framework. We also interviewed TSA headquarters and 
field-based officials, as well as airport operators and law enforcement 
personnel in selected airport locations.
    The work upon which this statement is based was conducted in 
accordance with generally accepted Government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
   tsa has taken steps to improve aviation security, but additional 
                           actions are needed
TSA Has Taken Actions to Strengthen International Aviation Security but 
        Could Take Additional Steps to Ensure the Security of U.S.-
        bound Flights
    Civil aviation, including U.S.-bound flights, remains a target of 
coordinated terrorist activity. In the last 2 years, we issued reports 
on TSA's foreign airport and air carrier inspection programs (December 
2017), assessments of Cuban aviation security (July 2018), and TSA's 
process for reviewing security directives and emergency amendments that 
apply at last-point-of-departure airports (October 2019).\2\
---------------------------------------------------------------------------
    \2\ A last-point-of-departure flight is a flight that does not make 
any intermediate stops between a foreign and U.S. airport.
---------------------------------------------------------------------------
    Foreign airport assessments and air carrier inspections.--In 
December 2017, we reported that TSA had taken steps to enhance its 
foreign airport assessments and air carrier inspections since 2011, 
including aligning resources based on risk, resolving airport access 
issues, making evaluations more comprehensive, and creating operational 
efficiencies.\3\ For example, we found that TSA had implemented 
targeted foreign airport assessments in locations where risk was high 
and developed a system to strengthen its data analysis capabilities.\4\ 
However, we also found that TSA's database for tracking the resolution 
status of security deficiencies did not have comprehensive data on 
security deficiencies' root causes and corrective actions. In addition, 
the database lacked adequate categorization mechanisms such as 
capturing subcategories that would better explain the root causes of 
security deficiencies. We recommended, among other things, that TSA 
fully capture and more specifically categorize data on the root causes 
of security deficiencies that it identifies and corrective actions. To 
implement this recommendation, TSA developed a tool to capture airport 
vulnerability data and provided training to staff in the use of the 
tool and developed guidance that delineates updated categories for root 
causes in its data systems.
---------------------------------------------------------------------------
    \3\ GAO, Aviation Security: TSA Strengthened Foreign Airport 
Assessments and Air Carrier Inspections, but Could Improve Analysis to 
Better Address Deficiencies, GAO-18-178 (Washington, DC: Dec. 4, 2017). 
Through its foreign airport assessment program, TSA assesses the 
effectiveness of security measures at foreign airports using selected 
aviation security standards and recommended practices adopted by the 
International Civil Aviation Organization, a United Nations 
organization representing 191 countries.
    \4\ According to TSA officials, the Global Risk Analysis and 
Decision Support System has provided them with a number of benefits, 
including the ability to run standardized reports, extract and analyze 
key data, and manage airport operational information, such as data on 
security screening equipment.
---------------------------------------------------------------------------
    Cuban aviation security.--In July 2018, we reported on TSA's 
efforts to ensure the security of air carrier operations between the 
United States and Cuba.\5\ We found that TSA's inspections and 
assessments in Cuba generally followed standard operating procedures, 
but TSA did not inspect all air carriers at its own established 
frequency. We recommended that TSA improve its ability to identify 
certain air carriers requiring inspection in Cuba and develop and 
implement a tool that more reliably tracks their operations between the 
United States and Cuba. In response to our recommendation and as 
required under the TSA Modernization Act, TSA developed several tools 
and processes that corroborate and validate flight schedule data.\6\ 
For example, TSA developed a tool to analyze aggregate flight data and 
validate or identify service to the United States from international 
locations and began issuing monthly reports on unscheduled operations 
to its inspectors responsible for Cuba. By taking these steps, TSA is 
better able to identify operations requiring inspection and corroborate 
and validate flight schedule data.
---------------------------------------------------------------------------
    \5\ See GAO, Aviation Security: Actions Needed to Better Identify 
and Track U.S.-Bound Public Charter Operations from Cuba, GAO-18-526 
(Washington, DC: Jul. 12, 2018).
    \6\ See Pub. L. No. 115-254, div. K, tit. I,  1957(a), 132 Stat. 
at 3597.
---------------------------------------------------------------------------
    Security directives and emergency amendments.--When threat 
information or vulnerabilities at foreign airports indicate an 
immediate need for air carriers to implement additional security 
measures, TSA may issue new or revise existing security directives (for 
domestic air carriers) and emergency amendments (for foreign air 
carriers).\7\ The TSA Modernization Act includes a provision for us to 
review the effectiveness of the TSA process to update, consolidate, or 
revoke security directives, emergency amendments, and other policies 
related to international aviation security at last-point-of-departure 
airports.\8\ As of March 2019, there were 46 security directives and 
emergency amendments (i.e., directives) in effect related to air 
carrier operations at foreign airports.\9\
---------------------------------------------------------------------------
    \7\ See 49 C.F.R.  1544.105(d), 1544.305, 1546.105(d).
    \8\ See Pub. L. No. 115-254, div. K, tit. I,  1953(b), 132 Stat. 
at 3594.
    \9\ Twenty-eight directives addressed threats (e.g., explosives in 
laptops) and 18 pertained to vulnerabilities identified at foreign 
airports (e.g., inadequate perimeter fencing).
---------------------------------------------------------------------------
    Earlier this month, we reported that TSA reviews directives, but 
its process does not fully define how to coordinate with industry 
representatives and TSA has not determined if it is appropriate to 
incorporate the security measures of many long-standing directives into 
air carrier security programs in accordance with TSA policy.\10\ 
Representatives from 4 domestic air carriers stated that coordination 
with TSA on directives has improved. However, representatives from 6 
air carriers and 2 associations indicated that TSA has issued revised 
directives that are vague or difficult to implement because TSA did not 
sufficiently involve them in the review process. This contributed to 
TSA officials offering different interpretations of aircraft cabin 
search requirements. Further, TSA policy states that directives are not 
intended to be permanent and are expected to eventually be canceled or 
incorporated into security programs. Our analysis found that TSA issued 
more than one-half (25) of the directives prior to 2014, meaning they 
have been in effect for more than 5 years. Several have been in effect 
for more than 10 years. We recommended, among other things, that TSA 
better define how to coordinate with air carriers when reviewing 
directives and when to cancel or incorporate long-standing security 
directives and emergency amendments into security programs. TSA agreed 
with our recommendations and plans to develop a process for more formal 
and consistent coordination with air carrier and industry association 
stakeholders and consideration of directives for cancellation or 
incorporation into security programs.
---------------------------------------------------------------------------
    \10\ GAO, International Aviation Security: TSA Should Improve 
Industry Coordination and Its Security Directive and Emergency 
Amendment Review Process, GAO-20-7 (Washington, DC: Oct. 3, 2019).
---------------------------------------------------------------------------
TSA Created a Domestic Aviation Security Working Group to Develop and 
        Update Leading Practices with Transportation Security 
        Stakeholders
    Public area security.--In November 2013, an armed individual 
entered the Los Angeles International Airport, firing multiple shots 
killing a transportation security officer and injuring 2 others and a 
passenger. As a result of this and subsequent airport attacks, TSA co-
hosted a series of security summits with stakeholders and published the 
Public Area Security National Framework in May 2017 outlining a series 
of best practices and recommendations to secure airport pubic areas. 
The TSA Modernization Act required TSA and the DHS Cybersecurity and 
Infrastructure Security Agency to establish a public area security 
working group to promote collaboration between TSA and public and 
private stakeholders to develop non-binding recommendations for 
enhancing security in public areas of transportation facilities.\11\ 
The Act also requires TSA to periodically share best practices 
developed by TSA and transportation stakeholders related to protecting 
public spaces of transportation infrastructure from emerging 
threats.\12\
---------------------------------------------------------------------------
    \11\ See Pub. L. No. 115-254, div. K, tit. I,  1931(b), 132 Stat. 
at 3569-70.
    \12\ See Pub. L. No. 115-254, div. K, tit. I,  1932(a), 132 Stat. 
at 3571. See also Pub. L. No. 115-254,  1931(c)(2), 132 Stat. at 3570.
---------------------------------------------------------------------------
    In March 2019, TSA officials established the public area security 
working group to engage with stakeholders to validate and update the 
best practices that were developed in the 2017 Public Area Security 
National Framework. The working group consisted of security 
stakeholders from both aviation and surface transportation modes. In 
October 2019, TSA officials told us that they plan to issue an updated 
list of best practices in the fall of 2019.
    Insider threats.--Recent incidents involving aviation workers 
misusing their access privileges have heightened concerns regarding the 
risk of insider threats at airports. TSA estimated in 2018 that there 
were approximately 1.8 million people with unescorted access to secured 
areas of the Nation's airports.\13\ We have on-going work examining the 
actions TSA, airport operators, and air carriers have taken to mitigate 
concerns regarding insider threats at airports and the extent to which 
TSA's Insider Threat Program is guided by a strategic plan. 
Additionally, the TSA Modernization Act requires TSA, in consultation 
with the Aviation Security Advisory Committee to conduct a study 
examining the cost and feasibility to airports, airlines, and TSA of 
implementing enhanced employee inspection measures at all access points 
between non-secured areas and secured areas of certain airports.\14\ We 
will review this study once submitted by TSA.
---------------------------------------------------------------------------
    \13\ In general, secured areas of airports are areas for which 
security measures, such as access controls, must be carried out to 
prevent and detect the unauthorized entry, presence, and movement of 
individuals and ground vehicles, and include areas where domestic and 
foreign air carriers enplane and deplane passengers and sort and load 
baggage, and any adjacent areas not separated by adequate security 
measures. See 49 C.F.R.  1540.5, 1542.201.
    \14\ See Pub. L. No. 115-254, div. K, tit. I,  1931(b), 132 Stat. 
at 3572. Established in 1989, the Aviation Security Advisory Committee 
provides advice to the TSA administrator on aviation security matters, 
including the development, refinement, and implementation of policies, 
programs, rule making, and security directives. Committee members 
represent stakeholder groups affected by aviation security 
requirements. See 49 U.S.C.  44946.
---------------------------------------------------------------------------
TSA Coordinates Reviews of Passenger Screening Rules, but Could Better 
        Measure Rule Effectiveness
    Screening rule changes.--In 2010, TSA began identifying passengers 
for enhanced screening who are not known or suspected terrorists, but 
who fall within the scope of screening rules. Specifically, TSA 
identifies passengers for enhanced screening through the application of 
screening rules, which TSA develops by considering current intelligence 
and other factors. TSA refers to these rules and lists as Silent 
Partner and Quiet Skies. Silent Partner rules identify passengers for 
enhanced screening on inbound flights to the United States. Quiet Skies 
rules--a subset of the Silent Partner rules--identify passengers for 
enhanced screening on subsequent domestic and outbound flights. The TSA 
Modernization Act includes a provision for GAO to review the oversight 
mechanisms and effectiveness of Silent Partner and Quiet Skies.\15\
---------------------------------------------------------------------------
    \15\ See Pub. L. No. 115-254, div. K, tit. I,  1949(e), 132 Stat. 
at. 3589.
---------------------------------------------------------------------------
    We found that TSA coordinates reviews of Silent Partner and Quiet 
Skies through quarterly meetings and notifies an expanded set of DHS 
and TSA stakeholders--including DHS Traveler Redress Inquiry Program 
and the Federal Air Marshal Service--of rule changes as required under 
the Act. We also found that TSA has not identified a means to 
comprehensively measure rule effectiveness. TSA officials explained 
that they had not yet fully assessed the rules' effectiveness because 
it was difficult to measure. TSA has access to data--such as the 
outcomes of enhanced screening of Silent Partner and Quiet Skies 
passengers at airport checkpoints--that could be explored to better 
assess rule effectiveness. Exploring additional data sources could help 
TSA refine and supplement the agency's existing efforts to measure 
program effectiveness. In our draft report, we recommended that TSA 
explore additional data sources for measuring the effectiveness of 
Silent Partner and Quiet Skies rules. TSA is currently reviewing the 
draft report and is scheduled to provide any comments by early November 
2019.
TSA Should Ensure Aviation Screening Technologies Continue to Meet 
        Detection Requirements after Deployment
    To protect the U.S. aviation sector, including the roughly 440 
airports it regulates, TSA deploys technologies to screen passengers 
and their carry-on and checked baggage for homemade explosives and 
other prohibited items that could, among other things, cause 
catastrophic damage to an aircraft. The on-going threat of terrorism 
requires TSA to continually assess the effectiveness of its screening 
operations and, when necessary, develop and deploy new screening 
technologies. The TSA Modernization Act includes a provision for us to 
review whether TSA allocates resources appropriately based on risk at 
TSA-regulated airports, among other things.\16\
---------------------------------------------------------------------------
    \16\ See Pub. L. No. 115-254, div. K, tit. I,  1923, 132 Stat. at 
3561.
---------------------------------------------------------------------------
    Our review of TSA acquisition documents found that TSA considers 
risk at the beginning of the screening technologies acquisition 
process. However, TSA officials could not provide an example of when 
risk information for specific airports had directly influenced 
decisions about where and in what order to deploy screening 
technologies to airports in the recent past. Fully disclosing what risk 
factors are weighed and how decisions are made could better ensure that 
TSA's deployment of screening technologies matches potential risks. We 
recommended that TSA officials document their assessments of risk and 
the rationale behind decisions to deploy screening technologies.
    We also found that TSA does not ensure that screening technologies 
continue to meet detection requirements after they have been deployed 
to airports, when performance can degrade over time. According to 
officials, the agency uses certification--a step in the test and 
evaluation process--to confirm that technologies meet detection 
requirements before they are deployed to airports, and calibration of 
the technologies to confirm that technologies are at least minimally 
operational while in use at airports. They stated that these processes 
are sufficient to assure TSA that screening technologies are operating 
as intended. While these processes serve important purposes, they do 
not ensure that screening technologies continue to meet detection 
requirements after they have been deployed because performance can 
degrade over time. Developing and implementing a process to ensure 
technologies continue to meet detection requirements after deployment 
would help ensure that TSA screening procedures are effective and 
enable TSA to take corrective action if needed. In our draft report, we 
recommended that TSA develop and implement a process to ensure 
technologies continue to meet detection requirements after deployment. 
TSA is currently reviewing the draft report and is scheduled to provide 
any comments by early November 2019.
     actions are needed to improve surface transportation security
TSA Should Improve Coordination for its Surface Transportation Security 
        Training Program
    The TSA Modernization Act includes a provision that we review 
resources provided to TSA surface transportation programs and the 
coordination between relevant entities related to surface 
transportation security.\17\ According to our analysis, TSA Surface 
Programs received $123 million in fiscal year 2017 and $129 million in 
fiscal year 2018.\18\ The surface program appropriation represented 
about 1.6 percent of TSA's total appropriation in both fiscal years, 
according to DHS data.
---------------------------------------------------------------------------
    \17\ See Pub. L. No. 115-254, div. K, tit. I,  1966, 132 Stat. at 
3607.
    \18\ Surface activities are primarily carried out by 3 TSA 
offices--Security Operations; Law Enforcement/Federal Air Marshal 
Service; and Policy, Plans, and Engagement. TSA reported that these 
offices were collectively allocated about 99 percent of TSA's Surface 
Programs appropriation in fiscal year 2017 and 93 percent in fiscal 
year 2018.
---------------------------------------------------------------------------
    We also found that in fiscal years 2017 through 2019, TSA reported 
using surface program resources for non-surface activities. For 
example, in fiscal year 2018, TSA reprogrammed $5 million from the 
Surface Programs account to Mission Support activities to address 
security requirements and increase hiring of transportation security 
officers.
    Further, we found that TSA could improve internal coordination 
roles and responsibilities for planning and implementing its voluntary 
Intermodal Security Training and Exercise Program (I-STEP)--a program 
intended to engage with system operators and Governmental security 
partners to enhance surface transportation security. For example, 
officials from TSA's office that provides intelligence briefings during 
program exercises stated that they do not typically participate in 
planning meetings because they are not consistently invited to attend. 
In our draft report, we recommended that TSA clarify roles and 
responsibilities for all offices involved in the coordination of 
surface transportation exercises, including when these offices are to 
coordinate. TSA is currently reviewing the draft of this report and is 
scheduled to provide any comments by early November 2019.
Actions Needed to Reflect Pipeline Security Roles in Key Documents and 
        to Address Weaknesses in TSA's Pipeline Security Program 
        Management
    More than 2.7 million miles of pipelines transport and distribute 
the natural gas, oil, and other hazardous liquids that the people and 
businesses within the United States depend on to operate vehicles and 
machinery, heat homes, generate electricity, and manufacture products. 
Responsibility for safeguarding these pipelines is shared by TSA; the 
Pipeline and Hazardous Materials Safety Administration (PHMSA), within 
the Department of Transportation (DOT); and pipeline operators. TSA 
oversees the security of all transportation modes, including pipelines. 
PHMSA oversees pipeline safety. DHS and DOT signed a memorandum of 
understanding (MOU) on their roles across all transportation modes in 
2004, and an Annex to the MOU in 2006 to further delineate their 
pipeline security-related responsibilities. The TSA Modernization Act 
included a provision for GAO to review DHS and DOT roles and 
responsibilities for pipeline security.\19\
---------------------------------------------------------------------------
    \19\ See Pub. L. No. 115-254, div. K, tit. I,  1980, 132 Stat. at 
3619.
---------------------------------------------------------------------------
    We reported in June 2019 that key pipeline security documents need 
to better reflect the current operating environment.\20\ For example, 
the MOU Annex has not been reviewed to consider pipeline security 
developments since 2006. As a result, the MOU Annex may not fully 
reflect the agencies' pipeline security and safety-related activities. 
We reported that by developing and implementing time frames for 
reviewing the MOU and updating it, as appropriate, TSA and PHMSA could 
better ensure any future changes to their respective roles and 
responsibilities are clearly delineated and updated on a regular basis.
---------------------------------------------------------------------------
    \20\ GAO, Critical Infrastructure Protection: Key Pipeline Security 
Documents Need to Reflect Current Operating Environment, GAO-19-426 
(Washington, DC: June 5, 2019).
---------------------------------------------------------------------------
    In addition, TSA's Pipeline Security and Incident Recovery Protocol 
Plan, issued in March 2010, defines the roles and responsibilities of 
Federal agencies and the private sector, among others, related to 
pipeline security incidents. For example, in response to a pipeline 
incident, TSA coordinates information sharing between Federal and 
pipeline stakeholders and PHMSA coordinates Federal activities with an 
affected pipeline operator to restore service. However, TSA has not 
revised the plan to reflect changes in at least 3 key areas: Pipeline 
security threats (e.g., cybersecurity threats), incident management 
policies, and DHS's terrorism alert system. By periodically reviewing 
and, as appropriate, updating its plan, TSA could better ensure it 
addresses changes in pipeline security threats and Federal law and 
policy related to cybersecurity, incident management and DHS's 
terrorism alert system, among other things. We made 5 recommendations 
to address these issues, including for TSA and DOT to develop and 
implement a time line for reviewing and updating the 2006 MOU Annex and 
for TSA to periodically review and update its 2010 pipeline incident 
recovery plan, as appropriate. TSA and PHMSA have actions under way to 
address our recommendations. For example, PHMSA officials stated that 
PHMSA and TSA continue to collaborate on updates to the 2006 MOU Annex.
    TSA has also developed and provided pipeline operators with 
voluntary security guidelines, and evaluates the vulnerability of 
pipeline systems through security assessments. However, in December 
2018 we identified some weaknesses and made recommendations to 
strengthen TSA's management of key aspects of its pipeline security 
program.\21\ For example, we reported that the number of TSA security 
reviews of pipeline systems has varied considerably over time. TSA 
officials stated that staffing limitations--ranging from 1 full-time 
equivalent in 2014 to 6 from fiscal years 2015 through 2018--within its 
Pipeline Security Branch have prevented TSA from conducting more 
reviews. Further, TSA does not have a strategic workforce plan to help 
ensure it identifies the skills and competencies--such as the required 
level of cybersecurity expertise--necessary to carry out its pipeline 
security responsibilities. We recommended that TSA develop a strategic 
workforce plan. As of October 2019, TSA has not yet fully addressed 
this recommendation. We will continue to monitor progress.
---------------------------------------------------------------------------
    \21\ TSA agreed with our recommendations. See GAO, Critical 
Infrastructure Protection: Actions Needed to Address Significant 
Weaknesses in TSA's Pipeline Security Program Management, GAO-19-48 
(Washington, DC: Dec. 18, 2018).
---------------------------------------------------------------------------
    Chairman Correa, Ranking Member Lesko, and Members of the 
subcommittee, this concludes my prepared statement. I would be happy to 
respond to any questions you may have at this time.

    Mr. Correa. Mr. Russell, thank you very much. You have a 
minute left. Thank you.
    [Laughter.]
    Mr. Correa. I thank all the witnesses for your testimony. I 
will remind each Member that he or she will have 5 minutes to 
ask questions of our panelists.
    Now I would like to recognize myself for the first set of 
questions. The first one is for Ms. Cogswell.
    As you know, part of the TSA Act, Congress codified a 5-
year term for the administrator of TSA. The current 
administrator, Mr. Pekoske, is wearing 2 hats. One is the 
administrator, and the other is acting secretary. Given these 
dual roles and duties, who is running the day-to-day operations 
at TSA?
    Ms. Cogswell. Sir, thank you very much for your question.
    As part of his re-designation and position as the senior 
official performing the duties of the deputy secretary, he has 
authorized me to run most of the day-to-day operations for TSA. 
Through that process I have a series of areas where I consult 
with him on a regular basis to ensure consistency with his 
direction and approach.
    Mr. Correa. Thank you. How do you decide which issues are 
delegated to him versus you, and how has that affected the 
implementation of the Act?
    Ms. Cogswell. With--the way we have been approaching this 
process is through long-standing close collaboration. As you 
might expect, I talk to him multiple times a week. I look for 
any issues that I believe are particularly sensitive or time-
consuming in nature to ensure that there is no instance where 
he would be caught off guard.
    Mr. Correa. Given the concerns that we have--and I am sure 
you are doing a great job--do we need a stable leadership at 
the top of the agency? Should these vacancies be filled?
    Ms. Cogswell. It is incredibly important for TSA to have 
stable leadership over an extended period of time. I think it 
is one of the best parts of the Act, was creating that goal and 
that mindset. I know the administrator shares that goal. I know 
he very much is a believer in this role, and this position, and 
would very much like to be able to see out the remainder of his 
term.
    At the same time, we recognize the importance of continuity 
across the Department of Homeland Security. I can think of no 
one better qualified to be able to serve in this type of 
position than David Pekoske.
    Mr. Correa. As you know, Homeland Security has such a 
critical role defending our citizens, not only here, but around 
the world. So we want to be of as much help as possible, making 
sure you are able to implement your mission.
    Turning to another issue, which is workforce issues, as you 
know, the subcommittee has focused on the issues affecting the 
work force. Section 1907 of the Act requires that TSA convene a 
work force group with labor and submit to Congress a report 
containing recommendations to reform TSA's personnel management 
system.
    What is the status of that report?
    Ms. Cogswell. Sir, the working group has formed and had 
many productive discussions, down to and including we extended 
the period of time because the discussions were so productive 
they had additional items they wanted to conclude. The working 
group concluded its deliberations at the end of August, and 
completed the drafting of the report in September. The report 
is now in clearance.
    Mr. Correa. When will you expect that?
    Ms. Cogswell. I hope that it will be in a matter of weeks.
    Mr. Correa. A matter of weeks. Thank you.
    The statute also says that the working group should 
consider reforms to the TSA personnel management system, 
including appeals to the merits of some protection board and 
grievances procedures. Were those topics considered by the 
working group?
    Ms. Cogswell. Specifically, the group highly focused around 
discipline and grievances, yes.
    Mr. Correa. Thank you very much. Madam Chair--excuse me--
Madam Chair? I am the Chair. I would like to turn over--I now 
yield and I would like to recognize the Ranking Member of the 
subcommittee, the gentleperson from Arizona, Mrs. Lesko, for 
questions.
    Mrs. Lesko. Thank you, Mr. Chairman. You also had, like, a 
minute left. So we are really buzzing by here. This is great.
    Mr. Correa. We are going to have a second round.
    Mrs. Lesko. Oh, OK. I am going to have a question for both 
of you.
    In the GAO's initial report from the TSA Modernization Act, 
the review found that TSA does not ensure that screening 
technologies continue to meet detection requirements after they 
have been deployed to airports. In this review the GAO 
recommended that TSA implement a process to ensure technologies 
continue to meet detection requirements after deployment, and 
that TSA is currently reviewing this recommendation.
    So my first question is for Mr. Russell.
    Can you expand on this a little bit more? So we are putting 
in new technologies like, let's say, CT scanners, and we are 
not checking up on them to see if they are still working. Is 
that what you are saying?
    Mr. Russell. Right. So what we found is, for the fielded 
screening technologies--so think about the body scanners, other 
pieces of equipment--there is an initial certification process 
when they complete the procurement process to ensure--run it 
through all its paces, it does meet all the requirements, as 
expected. Then it gets deployed to airports.
    So what we found is that, on a--usually, a daily basis, 
most airports have a calibration kit that they run through the 
equipment that checks various diagnostics for the--that 
equipment is working properly. But that check does not include 
ensuring that the actual detection of an explosive or other 
prohibited item is operating at the same level as when it left, 
let's say, the factory and that certification testing. So that 
is what we are getting at.
    Mrs. Lesko. So, Mr. Russell, is that done? This detection, 
would it normally be done by people that are just trying to 
sneak things through? Is that what it would be? Or are you just 
saying after hours, or whatever, they would--you would test it? 
How do you test it?
    Mr. Russell. So that is where we had the recommendation, 
that we think TSA should devise a process for how you 
periodically check that the equipment, once fielded, is, in 
fact, still operating at that high detection level when it left 
the certification process.
    Mrs. Lesko. OK, thank you.
    Ms. Cogswell, in relation to that, what can TSA do better? 
Do you have any ideas how you can do this?
    I went to that area where you were testing the different 
technologies and that type of thing. So how would you do a 
better job at this? How would you test somebody? Would you do, 
like, surprise checks with undercover people? How--what are you 
thinking?
    Ms. Cogswell. Thank you, ma'am, and do very much appreciate 
your visit out to our transportation security integration 
facility, and would offer any of your colleagues, if they would 
like to come see it, as well, we would be happy to have you 
out.
    This item is still under review. We are still putting 
together our official response.
    I think you have highlighted one of the most important 
pieces is ensuring that the plan that we come up with will meet 
GAO's interest, while recognizing--we already do testing today, 
as you highlighted. We already have processes by which we have 
covert testing against our systems to look for overall 
throughput, including a move to what we call index testing, 
where we do an assessment across our system to really 
understand what performance levels are at each time.
    This recommendation, I think, goes at a slightly different 
area, which is the efficacy of the technology over time. We 
have got a couple ideas around this, but we will want to have a 
good discussion with GAO to make sure it matches their 
interests and thoughts. Because, to your exact point, we can't 
actually really bring a live explosive to a checkpoint on a 
regular basis, given all the equipment we have.
    How is the best way to approach this that meets the needs, 
but is feasible and effective?
    Mrs. Lesko. Thank you. with the 51 seconds I have left, I 
have a question that really doesn't deal with this GAO report, 
but it is to do with the REAL ID. You know, it is set to be in 
effect that everybody's supposed to have a REAL ID, a travel 
ID, by October 1, 2020. Do we have any, like, thoughts--does 
TSA have any thoughts? Because I am worried that people aren't 
going to get these things in time.
    I mean, people are trickling in, getting these. Like, I 
have gotten one, my son has gotten one. But the deadline hits--
what are we expecting is going to happen? Because I think all--
every single Congress Member is going to be--like, tons of 
calls are going to happen because they are going to show up at 
their airport without this REAL ID, and they can't fly.
    Ms. Cogswell. So at this point the most important thing we 
can do is get wider awareness of the deadline out to as many 
people as possible, and help people understand that they have 
more than one option. So both--you can get a REAL ID-compliant 
license, but if your State is not quite there, you also have 
other options to receive compliant documentation. Examples 
include passports, a global entry card, a military ID.
    So--but critical through all of this is to get the word out 
as far as possible, not only to the entire travel industry, who 
are working very hard with us, with local motor vehicle 
administrators to help create that awareness, to conduct local 
enrollment events at airports, at other locations, to try to 
ease that burden and make it more readily visible to people on 
how they can quickly update. But right now, most critical, we 
need to get the word out.
    Mrs. Lesko. I think all of us should help in doing that, 
because otherwise there is going to be a big--a lot of people 
are going to call our offices, I think.
    So you had mentioned one of the alternatives is global 
entry already. Is PreCheck also an alternative?
    Ms. Cogswell. At this time--and it is important to 
recognize how PreCheck works today. Through PreCheck we conduct 
a series of additional verifications looking for threat 
information in--within someone's background. However, when 
someone shows up at the travel document checker, at the front 
of the queue, what they are often presenting is their driver's 
license.
    Under statute and implementing regulations, we are not 
allowed to accept a non-compliant driver's license after 
October 1, 2020.
    Mrs. Lesko. All right. Thank you.
    Mr. Correa. Thank you, Mrs. Lesko. Now I would like to 
recognize Mr. Cleaver for 5 minutes of questions.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Ms. Cogswell, thank you for being here.
    Mr. Russell, thank you, as well.
    This--none of this has anything to do with your work, but, 
you know, I have been in--almost every other month, it seems, 
whenever we have had either a full hearing, a committee 
hearing, we have had a new director or a new acting director, 
which can't possibly be one of the better things that is 
happening to the agency. You know, and that is not a question. 
It is a declaration.
    So my concern is that not only are we having, you know, the 
changes at the top, but, you know, when you--when we talk about 
the work force issues, we still have a--an unbelievably high 
turnover rate of TSA employees. That is--I hope that is as 
troubling to you as it is to me, because, you know, I go--I do 
an average of 1,800 air miles a week. So, you know, I get a 
chance to know the guys for about 6 months. Then there are a 
whole new group coming in. It seems like every flight, every 
other time I come to airport, they are training a new group to 
come in.
    My analysis is that it is due to the poor pay. Are we going 
to get that changed?
    Ms. Cogswell. Thank you very much for the question, and I 
appreciate the--your efforts and interest in ensuring that you 
are caring for our work force. I appreciate it very much, and 
know they appreciate your engagement at the checkpoint when you 
go through. It means a lot to them when people care about them 
enough to ask how their day is, rather than just rushing along. 
So thank you so much for your support.
    As to pay, what we have authority to do now and already do 
is provide a retention incentive. So for those airports where 
retention is significantly above what we would like to see, we 
are authorized and do pay a differential to them now. That 
differential ranges from about 5 percent over the regular 
salary, to up to 60 percent over the salary, depending on local 
working conditions and the level of retention we issue--we see 
at that specific location.
    We have additional authorities with respect to other pay 
reforms that we can take. Within the Aviation and 
Transportation Security Act there is broad ability for us to 
set what type of pay system we have. What we don't have, 
however, is budget to make broad-scale changes across the 
board.
    Mr. Cleaver. OK, let's put a period right there for a--you 
can put a comma, but--because--so let me interpret what I 
thought I heard you say, that significant changes can be made, 
but there is a need to increase the funding for positions 
before that can be done on a scale that would assure employees 
that there is a future in this.
    Ms. Cogswell. We are very much working right now on a 
series of options that we are considering within the 
administration, and look forward to working with Congress, 
going----
    Mr. Cleaver. OK, all right, thank you.
    Ms. Cogswell [continuing]. Into the future----
    Mr. Cleaver. You are very kind. What I'm--I guess you 
can't--we need to pay them more money. If we or I need to push 
for a higher budget, if we--if there is an understanding that 
everything is being done now to increase the salaries with the 
budget that is there, then my belief is that we need to do a 
budget increase, whatever we need to do, because I have never 
understood this.
    The people in whose hands we place our lives every--for me, 
every week, sometimes 3 or 4 times a week, we pay them less 
money. I mean, I--it just doesn't register, you know, with me. 
I don't--I can't figure it out. So I want to fix it.
    Mr. Russell, am I--can you help me? Somebody help me. Go 
get--can you help me? What do you think? What needs to be done?
    Mr. Russell. Yes. So one of the things that we have seen in 
2018, we did a report that looked at the staffing allocation 
model, just to figure out how many airports--or how many TSOs 
you need to go to the airports, and what we found is that 
system is effective, but it is budget-constrained. So they plug 
in the amount of funding that they have, and then try to make 
the numbers work to best support the airports.
    So it could be a different number of TSOs that are needed 
if you unconstrain it when you do that model without the 
current budget. If that helps.
    Mr. Cleaver. I think my time has run out before my 
questions ran out. But thank you very much, both of you.
    Thank you, Mr. Chairman.
    Mr. Correa. Mr. Cleaver, we will have a second set of 
questions coming up. Thank you.
    I would like to recognize Mr. Bishop now for 5 minutes of 
questions.
    Mr. Bishop. Thank you, Mr. Chairman.
    Ms. Cogswell, TSA's explosives detection canine program is 
a critical element to screening passengers and baggage for a 
wide range of explosives threats. The TSA Modernization Act 
included several provisions aimed at improving that program. 
Section 1928 requires TSA to issue behavioral, medical, and 
technical standards for third-party explosives detection 
canines to screen passengers and property. What is the status 
of this provision, and can you provide any insight into what 
the committee can expect to see in terms of standards?
    Ms. Cogswell. Thank you very much. I share your 
appreciation for our canine detection teams. You know, I--every 
time I go out to airports or other locations and I see the 
canines in action, while I love my job, I wish I loved my job 
half as much as those dogs love their job.
    [Laughter.]
    Ms. Cogswell. Every day you see their incredible dedication 
and their hard work. I love really seeing both the canines and 
their handlers in action.
    I will say, as to your specific question, we have formed 
the working group, and the working group has submitted their 
recommendations to TSA. We are now in the process of 
formalizing those into standards, and should have those 
completed in the next month or 2.
    Mr. Bishop. The law also authorizes the third-party canine 
cargo screening program. How has this provision been 
implemented, and what has the response been from transportation 
stakeholders?
    Ms. Cogswell. We issued the implementing regulations last 
December, and began immediately training the various teams. We 
have more than 230 teams that have been certified to date, 
including a number of third-party entities who are able to 
provide that certification.
    Overall, we have seen a tremendous interest out of the 
cargo environment, and receive a lot of support from industry 
for implementing that provision.
    Mr. Bishop. Thank you, ma'am.
    Thank you, Mr. Chairman. I yield back.
    Mr. Correa. Thank you, Mr. Bishop. I would like to 
recognize Ms. Barragan now for 5 minutes of questions, sir--
ma'am.
    Ms. Barragan. Thank you. Thank you, Mr. Chairman.
    Ms. Cogswell, you mentioned in your opening remarks some 
progress done on surface transportation security. The Act, the 
TSA Modernization Act, pushes TSA to study innovative ways to 
advance surface transportation security. Under section 1981 of 
the Act, the TSA is required to conduct the feasibility 
assessment of introducing advanced security technologies into 
surface transportation systems, and increasing vetting and 
identifying verification of the surface transportation 
passengers.
    The assessment was due to Congress by April 3, 2019, but 
has not yet been produced. Can you tell us why that is the 
case, and whether there has been an impact on the staffing that 
has impacted this deadline?
    Ms. Cogswell. Thank you very much. As was noted also in my 
testimony, we stood up the Surface Transportation Security 
Advisory Committee.
    We have also done a significant outreach effort across the 
country to engage with the various stakeholders involved in 
this process to identify where some of their highest interests 
and needs are, to ensure that, as we developed various ideas 
for that feasibility study and analysis, we were taking on 
those items of most interest.
    Ms. Barragan. So do we know when the study is going to be 
ready for Congress, the one that was due in April?
    Ms. Cogswell. We still have some additional work under way 
within TSA to finalize up that analysis, and then it will need 
to go into review. So it will be issued early next year.
    Ms. Barragan. Early next year. OK.
    In 2013, a gunman shot and killed a TSA officer at Los 
Angeles International Airport, my home airport. In 2017, a 
gunman shot and killed 5 people at Fort Lauderdale 
International Airport. In the aftermath of these shootings, DHS 
and TSA called for airports to create unified operation centers 
to coordinate emergency response and improve communications.
    In section 1987, the TSA--of the Modernization Act--
required TSA to provide stakeholders a framework for 
establishing such centers. This language came from my bill, the 
Strengthening Local Transportation Security Capabilities Act.
    Ms. Cogswell, what is the status of this effort, and what 
resources has TSA provided to airports?
    Maybe you can shed some light on how many airports have 
created these unified operation centers.
    Ms. Cogswell. We have issued those guidelines. We have--
currently are staffing full-time at 12 unified operation 
centers, and have another 4 that are staffed intermittently, 
depending on the various exercises or response activities under 
way at those locations.
    We are working across the board with airports to understand 
what model works best with them, and what their expectations 
are for the other stakeholders within the airport community to 
promote a positive, unified response.
    Ms. Barragan. OK. What more can TSA and Congress do to push 
airports to establish the centers? Is there anything else that 
we can do to be helpful?
    Ms. Cogswell. Continuing to talk about it. You are 
highlighting the need. The reason for people to not meet each 
other for the first time on a bad day, to regularly work 
problems together, is the most important thing.
    Ms. Barragan. OK. I want to take a moment to applaud the 
work of TSA, and the work of the men and women who are on the 
front lines, I call it, at our airports. I am a firm believer 
that the greatest terror threat is going to come through 
airports and seaports, and the TSA officers and the work they 
do is so critical to the safety of Americans in the homeland. 
So I want to applaud their work, day in and day out.
    My colleague touched upon the issue of pay and salaries. I, 
frankly, can't understand why we pay the men and women on the 
front line such a low amount of money, when they are 
responsible for our security. So I am greatly concerned about 
what we can do to increase morale, increase retention, and 
making sure that they have representation to be in the 
strongest position possible.
    Now, the TSA Modernization Act directed your agency to 
create a working group to work with labor representatives and 
produce a report outlining recommendations on how TSA could 
perform its personnel management system. I am aware that TSA is 
late in submitting this report to Congress, so I am hoping you 
can provide clarity on it. When can we expect this report?
    Can you now list any recommendations provided by this 
working group?
    Ms. Cogswell. The working group had a very productive 
discussion, agreed upon a number of joint recommendations. The 
report is in final administration clearance. We hope to have it 
cleared within the next few weeks.
    Ms. Barragan. Great. Thank you, I yield back.
    Mr. Correa. Mrs. Watson Coleman, you are recognized for 
questions.
    Mrs. Watson Coleman. Thank you. Thank you, Mr. Chairman.
    Ms. Cogswell, how are you today? Good. Ms. Barragan just 
asked you about the working group. Did the working group 
consist of the union members, as well? Was it the full--OK. 
When was it constituted?
    Ms. Cogswell. It started in the spring and went--after the 
shutdown, and went through full meetings, went through the end 
of August.
    Mrs. Watson Coleman. So the report that you are going to 
make is something that has--that you are going to report on, is 
that consensus between the union and the agency?
    Ms. Cogswell. Right----
    Mrs. Watson Coleman. With regard to these TSOs?
    Ms. Cogswell. Yes.
    Mrs. Watson Coleman. Well, we are really excited to see 
that.
    The National Deployment Force, that--which is the short-
term deployment force when there is a need, whether it is 
seasonal or issue-related, is sent to assure that there is 
adequate screening resources. The NDF was codified in section 
1988 of the TSA Modernization Act--actually, based on my bill, 
the TSA National Deployment Force Act.
    The NDF was deployed last year to larger airports like 
Seattle and Denver, where TSA did not meet its hiring goals, 
and to airports in Hawaii, where TSA has a difficult time 
attracting candidates. What steps are you taking to hire 
permanent TSOs at those particular challenging airports?
    Ms. Cogswell. Thank you very much for the authorization of 
the National Deployment Force. They have provided critical 
assets, not only for the issues you have identified, but in 
response to a wide range of various needs across TSA. This is a 
critically important aspect for us.
    Mrs. Watson Coleman. Right. I agree with you 100 percent. I 
just wanted to know what we are doing about trying to recruit 
people to work at those airports.
    Ms. Cogswell. Absolutely.
    Mrs. Watson Coleman. Can you----
    Ms. Cogswell. We have increased the retention incentive in 
those locations, and authorized additional, over-normal 
allocation hiring, so that they could ensure consistency over 
time with the full complement of staff needed, as well as 
authorizing some additional measures: Local travel, et cetera, 
so that there could be more load balancing in specific areas 
between hub and spoke airports in those areas.
    Mrs. Watson Coleman. So the work group that you--that was 
constituted--and report that is going to come out, it is also 
going to address these issues at--these areas that you 
particularly like to live in, live at, but you don't 
necessarily want to work there under the current conditions. Is 
that so?
    Ms. Cogswell. So the----
    Mrs. Watson Coleman. Will that affect how you work out 
these challenging airport hirings and retention?
    Ms. Cogswell. So the work group specifically looked at 
discipline procedures, as well as grievance procedures, 
focusing on those elements directly.
    Mrs. Watson Coleman. Did it not also look at hiring and 
retention?
    Ms. Cogswell. It did not.
    Mrs. Watson Coleman. Was it--was there an intention for it 
to look at the issue of retention, in particular?
    Ms. Cogswell. That was not an area where we signed them up 
for this round. We are having a number of other areas.
    Mrs. Watson Coleman. I am asking, though, does the bill, 
the law, include the discussion with the work group around 
those areas?
    Ms. Cogswell. I do not remember at this time.
    Mrs. Watson Coleman. I am not quite sure, but I think it 
does, because I think we were concerned about the recruitment 
and the retention and the discipline, you know, and any other 
sort of employee procedures. So I would appreciate feedback on 
that, if you don't mind.
    I want to ask you about something that has come to my 
attention with--regarding the Federal air marshals. There was 
an article in September of this year that sort-of spoke to what 
is considered a crisis and chaos in the Federal air marshal 
area, and TSA's alleged inability to respond in such a way that 
keeps these air marshals from burning out.
    You have had a series of suicides, you had several 
allegations of just sort-of mental health issues, and a lot of 
it having to do with scheduling, and the hours working, and the 
deprivation of sleep, and things of that nature. I was just 
wondering, do you all have something that you are doing 
internally that is addressing these issues, in particular, that 
you could highlight for us now, and perhaps we could discuss 
later?
    Ms. Cogswell. Absolutely. I look forward to discussing it 
more in-depth.
    So, just as a highlight, I would note that that article did 
not bring forward new data. It was looking at prior 
information. So that--the important piece to note is we already 
had a number of items underway.
    The first is where we are looking at what the right mix and 
balance is of flying versus on-ground time. That can mean, yes, 
your training time. It can mean what we call ground-based 
assignment, where you rotate out of flying for some period of 
time and perform some other security function--for example, at 
the airport. It also looks at how we best provide services to 
our air marshals so they have the help they need, should they 
need it, and equip other members of the work force to help 
engage with their colleagues.
    Mrs. Watson Coleman. Thank you. Through you, Mr. Chairman, 
it is an issue that I really would like for us to look at in a 
more in-depth way.
    Mr. Correa. So noted, and we will go in that direction. 
Thank you.
    Mrs. Watson Coleman. I yield back. Thank you. Thank you.
    Mr. Correa. Thank you very much. Now I would like to 
recognize a gentleperson from New York, Mr. Katko, for 5 
minutes of questions.
    Mr. Katko. Thank you, Mr. Chairman. I appreciate the 
opportunity. Welcome to you all, thank you for being here.
    As part of the TSA Modernization Act there was multiple 
insider threat provisions contained in it. So I just want to 
kind-of get an update. I know we are past the deadline for 
that, and given an opportunity to explain why we haven't 
received the information yet.
    But for each one of these, if you could, just tell me where 
we are at in the process. But actually, before that, tell me 
briefly why we are not--you haven't met the deadline that is 
included in the bill.
    Ms. Cogswell. Thank you very much. The most important part 
through all of those insider threat elements is to ensure 
close, detailed cooperation and collaboration with the various 
stakeholders involved.
    As you well know, we don't actually implement these by 
ourselves in most instances. We are actually asking the 
airports to implement when we issue any kind of regulatory 
action. So what we want to do is ensure that the 
recommendations we identify, as much as possible, are done 
through a jointly collaborative process. Then our feasibility 
analysis, including the economic analysis that goes with it, 
fully is in--fully informed by what our stakeholders see and 
believe would be the impacts.
    Mr. Katko. Now the deadline, I believe, is October. Do you 
have a projected deadline on when all these provisions will be 
accounted for and reported back to us?
    Ms. Cogswell. So the--probably the largest piece, the 
feasibility study, we had to do a survey of--more than 310 
airports responded to that, which was wonderful input toward 
that analysis. That one is wrapping up, in terms of its 
process, and is about to go into interagency clearance. I hope, 
therefore, you would receive it early in the new year, if not 
before then.
    Mr. Katko. OK.
    Ms. Cogswell. As to a number of other provisions, we have 
gone through an effort to receive direct input from the 
Aviation Security Advisory Committee, and are working to put 
together an overall road map for insider threat for all modes.
    Mr. Katko. OK. I understand that, but it sort-of didn't 
answer my question. When do you expect to have all this done?
    Ms. Cogswell. So the actual report for all the 
recommendations we look to have to you by early January.
    Mr. Katko. OK, I appreciate that. I am concerned that there 
is a provision that we asked you to follow that you didn't get 
it in a timely manner. But I do appreciate the diligence with 
which you are doing it. If it goes past January, we might be a 
little bit more upset than we are right now. Just be 
forewarned.
    Switching gears here, the PreCheck is PreCheck, though, 
which was passed into law. What is the status of the law's 
requirement to preserve the integrity of the TSA PreCheck lanes 
by only allowing enrolled passengers in PreCheck, while also 
establishing what the administrator said was the established 
modified screening lanes, or flex lanes that you call them, for 
other passengers determined to be low-risk?
    Ms. Cogswell. As you know, sir, we conducted pilots earlier 
this year for both models. Coming up on that, we determined 
both models are feasible. Both models have demonstrated 
throughput that we can manage. What we then needed to do was 
two-fold. No. 1, determine all of those locations, those 
airports where, based on current flow, projected volumes, we 
can go ahead and implement well in advance, and which locations 
doing a pure PreCheck lane wouldn't allow us to manage the 
overall throughput for that airport.
    At this point in time, we believe that we are ready to 
start executing and have started executing cutting over for all 
of those airports where we believe we can do so now. We 
believe, in the end, that is going to be about 75 percent of 
the total of 440 airports where we will be able to implement.
    Mr. Katko. OK. So now the current status of the PreCheck 
lane, is there non-PreCheck members still going through the 
PreCheck lane?
    Ms. Cogswell. There is. But, as I noted, we are starting to 
cut over now. You will start seeing airports roll that--will--
--
    Mr. Katko. When you say, ``cut over,'' what do you mean?
    Ms. Cogswell. We actually started this week.
    Mr. Katko. When you say, ``cut over,'' though, what do you 
mean by that?
    Ms. Cogswell. So for those airports, specifically, we will 
no longer have rules-based inclusion being used in that 
process.
    Mr. Katko. OK. When do you expect to be at 100 percent 
PreCheck only in PreCheck lanes? Because that is really what 
the bill is about. That is what we are really interested in.
    Ms. Cogswell. We are very mindful of the deadline and the 
interest to achieve that deadline. We very much also recognize 
the importance of providing a consistent experience.
    What we want to also not do, however, is totally disrupt an 
airport by doing so in a way that doesn't make sense. Critical 
to this is us being able to identify additional low-risk 
populations that would be eligible for some other kind of 
modified screening that is not as streamlined as PreCheck. That 
process is taking us a bit longer than I think any of us had 
hoped for, but critically important for us to get right.
    We will continue to provide you updates.
    Mr. Katko. OK. But I want to be--forewarn you all that that 
is not an optional date for--to be in compliance. So I don't 
want to have to have another hearing back here, saying you 
didn't comply with that date, either.
    It is very important, from a security standpoint, that only 
people that are in PreCheck, which is a higher level of 
repetitive screening of those candidates, should be in 
PreCheck. Also, people pay for it. It is a service that they 
expect to have and enjoy. So that is not an optional deadline 
in that law. So I want to forewarn TSA that, if that deadline 
is not met, there is going to be a lot of problems from this 
committee.
    Ms. Cogswell. Understood.
    Mr. Katko. Thank you. I yield back.
    Mr. Correa. Thank you, Mr. Katko. I concur with you on that 
specific point. That should not be an option.
    Mr. Katko. Thank you.
    Mr. Correa. I would like to ask unanimous consent from this 
committee to have Ms. Jackson Lee join us here, and to have Ms. 
Jackson Lee ask 5 minutes' of questions.
    Without objection.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    First of all, let me acknowledge the Chairman and the 
Ranking Member for their courtesy, and the Members of the 
committee.
    With a little bit of nostalgia, this is a committee I 
chaired some years ago. So I want to, first of all, express my 
appreciation to all of the TSOs that work across the Nation. To 
reiterate what I have done over and over again, that since 9/11 
the American people would be absolutely shocked and amazed of 
the terrorist threats and danger to the aviation system that 
TSOs have prevented.
    I am concerned on several things. But let me, first of all, 
start with--every time we mention the employment landscape, or 
the labor numbers, it looks like TSA says all is well. But you 
will find not even in the ordinary course of business, where 
there are holidays or otherwise, that there are long lines, and 
people are not in place, or shifts are changing.
    What are you doing to modernize, from the perspective of a 
free flow of--a seamless system that has enough TSOs to be in 
place, whether or not they are at the AIT machine or elsewhere, 
to provide that extra level of comfort regarding the security 
mechanism that they are responsible for?
    Ms. Cogswell. TSA has an extensive model where we receive 
information from the aviation community about projected 
volumes, number of tickets sold, when new flights will be on 
board, so that we can model not only airport by airport, but 
down to checkpoint by checkpoint, based on projected volumes.
    You have highlighted correctly there are instances where 
those models don't quite work. No. 1, of course, is any time 
there is a thunderstorm set that comes off the East Coast. But 
in a series of other instances, we look for how best to meet 
the need.
    I will say the most important part, from our perspective, 
is ensuring that we are working to retain our throughput time 
lines within our established parameters, which is 30 minutes 
for standard, and 10 minutes for PreCheck.
    Ms. Jackson Lee. Does that mean--let me try to pierce that. 
Does that mean--do you have every TSO that you need to make the 
system work across the United States of America at this time?
    Ms. Cogswell. There are a number of instances, and we are 
working closely with those airports, where airline volume 
continues to increase at a very hefty rate, which is fantastic 
for our economy of this country.
    Unfortunately, a number of these airports were not actually 
built to accommodate that level of throughput within the 
existing lane structure. In those instances, we work very 
closely with the airports to understand how best can we open up 
a new lane, move shops or other to make additional space. We 
then staff those lanes as they become available.
    We also talk with them about what their longer-term plans 
are for redevelopment of their terminals to surface--service 
those additional volumes.
    Ms. Jackson Lee. I want to make the same point and follow 
up about the deadline regarding the certified identification, 
and I would hope that we could get an update as we move toward 
the deadline. I just fear a great deal of confusion, and also 
persons' inability to have that ID.
    I would encourage--and let me just ask the question, 
because I have another question. Are you all doing a sort-of 
last-minute, massive education outreach level that you can 
actually hear it, and pierce it? That means it has to be on all 
levels of social media, including the old-fashioned television. 
I have seen and heard nothing. Absolutely nothing. So----
    Ms. Cogswell. Yes, we are working extremely closely across 
the board with the travel industry, talking to them about how 
they can change up some of the communications they have, as 
passengers are actually buying tickets. We are actually--as 
people are flying now, our officers are advising someone, ``The 
document you are providing today''----
    Ms. Jackson Lee. You will do a--because my time is--you 
will do an outreach campaign, yourself----
    Ms. Cogswell. We are doing outreach.
    Ms. Jackson Lee. You are budgeted to do that?
    Ms. Cogswell. TSA is doing a full outreach around the 
traveling public. DHS is----
    Ms. Jackson Lee. Before the deadline?
    Ms. Cogswell. We have started already.
    Ms. Jackson Lee. All right. Let me ask you about the travel 
program. I want to raise the name of Crystal Sonnier. She is 
with the New Black Panther Party. I have spent the time dealing 
with the crisis of treatment by the TSA when she travels over 
and over again. From my perspective and her background, she 
proposes--or poses no threat.
    What is her route of getting off of--I assume it shows up 
on her ticket. I use her as an example. She is allowing me to 
use her name. What is the process for someone--like when I 
first came here Ted Kennedy was on the list. John Lewis was on 
the list. How do you extract yourself from being--off this 
list?
    I would also say that, as they do their job, I think it is 
very important to do their job. Let me be very clear. But can 
you have them particularly sensitive to the approach, to the 
language, to how you move the person around?
    Obviously, they are not a threat right there, because you 
already see that they don't have any weapons, they are already 
in the security area. But what is their process?
    Ms. Cogswell. Yes, ma'am. There is a couple pieces I would 
highlight out of this.
    The first and foremost is the ability to go through what is 
called DHS TRIP. So anyone who has had an issue while traveling 
may apply through DHS TRIP. This is a program that is 
Government-wide, but we manage it out of TSA.
    The No. 1 thing we find is the vast majority of individuals 
who are actually applying aren't actually on a watch list, but 
might have a sounds-alike name, similar spelling, similar name, 
similar date of birth, and therefore are inadvertently matched 
against a record. Quite easy for those individuals. We are able 
to distinguish them after they provide us additional 
information. We then give them a redress number. When they use 
that redress number in their travel, as they are making it with 
the airline, we therefore know not that person, and therefore 
they will not match.
    Ms. Jackson Lee. I will pursue that with you further, and 
try to directly make sure that we can find a way.
    I think it should be publicly made--Mr. Chairman, this is 
something that happened in the early, early, early stages of 
TSA, when an 8-year-old boy--we spent, like, 2 years trying to 
get him off the watch list. We--the late Senator Ted Kennedy, 
as I said, John Lewis, and a number of others were on this 
list, and were either rejected for tickets, or couldn't get 
through. So we haven't heard as much, but we still have some of 
them, as you well know.
    I think, for the traveling public, certainly TSO--TSA and 
TSOs are doing their job. But I really want to make sure that 
there is a pathway for those who are going through security and 
are not threats, and are treated as such.
    But I thank you for yielding, and I look forward to working 
with you and monitoring the modernization program. Thank you. I 
yield back.
    Mr. Correa. Thank you, Ms. Jackson Lee. I think she is 
absolutely right. That is a very important issue.
    Were you, Mr. Cleaver, on that list as well?
    Ms. Jackson Lee. I left out my pastor here. Thank you. Yes, 
you were. Don't want to speak out of turn, but I think he knows 
how it feels. I assume, because he has a very important and 
unique name. I yield.
    Mr. Correa. Thank you. Well, that being said, I would like 
to start a second round of questions, if I may, and I will 
start out with myself, recognizing myself for another 5 minutes 
of questions.
    I want to follow up with--to Mr. Cleaver's comments about 
TSA personnel pay. We still have a lot of part-time folks 
working, correct?
    Now, if I was to extrapolate from my discussions some of 
your workers, you do have high turnover. I think, if you have a 
part-time job, most of the folks working for you are there 
part-time until they can get another full-time job somewhere. 
So I think that is the crux of the issue. So this is a 
budgetary challenge that we have?
    Ms. Cogswell. We, actually, as part of the 2020 budget, 
changed up the ratio for our part-time, and are decreasing the 
number of part-time individuals authorized across our airports.
    There are specific locations where it still makes a lot of 
sense. You have individuals who have retired from other jobs, 
and don't actually want to work a full schedule. Works very 
well for them, and especially in some of those locations, 
depending on the type of work force----
    Mr. Correa. So would you say a lot of those part-timers 
would prefer to be part-time or full-time?
    Ms. Cogswell. Those part-timers, those specific ones I 
highlighted, would prefer to stay part-time. There are others, 
however, who would very much like to--and would prefer to----
    Mr. Correa. I imagine there is a lot of folks that are not 
retired who would probably want some stability from a full-time 
job, and don't have that opportunity.
    So I guess my next question is, in terms of budget, we have 
that tax, that fee we pay on tickets. That is supposed to go to 
airport security?
    Ms. Cogswell. Yes.
    Mr. Correa. It goes to airport security?
    Ms. Cogswell. All but the amount set aside under the Budget 
Control Act to go to deficit reduction.
    Mr. Correa. Say that again.
    [Laughter.]
    Mr. Correa. I love the way you put that. Would you restate 
that? It doesn't go to airport security. It does not.
    Ms. Cogswell. That amount does not. That amount goes to 
deficit reduction. The remainder comes to TSA.
    Mr. Correa. So we tax our passengers for security, and that 
money does not go to security, it goes to debt budget 
reduction. Thank you.
    Let's move on to small business participation. This 
committee is also focused on increasing small business 
participation, especially in the area of new screening 
technologies. The Act requires TSA to produce a strategy back 
in February to outline how you are supposed to get there.
    What is the status of this strategy, and why are we 8 
months late on this specific area?
    Ms. Cogswell. The strategy is within administration 
interagency clearance. We hope to have it out within the next 
few weeks.
    I will say this is an area that I do actually feel quite 
proud, and might take a few minutes talking about some of the 
areas----
    Mr. Correa. Please do. I--we want to follow up on this, 
specifically.
    Ms. Cogswell. Thank you. Seek to incentivize and build out. 
We agree with you that it is critically important to continue 
to look for new entrants in this space, that we not solely see 
just a consolidation of the market, but that we also look for 
the best ideas even for--and, frankly, more importantly--from 
individuals who maybe never even thought of themselves as 
working in the security community.
    Just as a couple examples I would like to highlight, last 
year we ran a special exercise through DHS Science and 
Technology with a number of entities out in the wider world, 
including educational institutions, to look at new algorithms 
for our AIT machines, the on-body screening detection systems. 
Incredibly promising work, all from individuals who had not 
previously provided this kind of service to TSA before. We have 
those algorithms in the lab now. Depending on the results, we 
would look to deploy them out on our existing fleet, increasing 
both our detection and reducing our false positives that we see 
in that arena.
    Other examples. Of the $2.1 billion the TSA spent last year 
in acquisitions, $450 million was actually to small business, 
exceeding our target for last year, almost a quarter of our 
entire work.
    Mr. Correa. CT machines. Do you see small businesses 
engaging in this area?
    Ms. Cogswell. Yes.
    Mr. Correa. Of business?
    Ms. Cogswell. One of the vendors who is directly involved 
and is currently undergoing trials is, in fact, a small 
business.
    Mr. Correa. What percentage of your non-service contracts 
are set aside for small businesses?
    Ms. Cogswell. So at this time we have do not have a set-
aside, but we have indicated in the current CT procurement that 
we may choose to have a set-aside.
    Mr. Correa. Do you have a set-aside for veterans?
    Ms. Cogswell. I don't know the answer. I can follow up with 
you.
    Mr. Correa. Please.
    Ms. Cogswell. If I might highlight one other area, if it is 
acceptable----
    Mr. Correa. Please do.
    Ms. Cogswell. So in this past year, just as an example, we 
do a broad agency announcement that also seeks different 
angles, different work against key problem areas through our 
innovation task force.
    Last year we received 85 submissions from 104 different 
vendors, 55 of which had never responded to a TSA solicitation, 
72 of which had never--72 percent had never contracted with 
TSA. Of the ones awarded, we selected 12 for demonstration, 7 
are small business.
    Mr. Correa. Now I want to encourage you to continue to look 
for small businesses. That is where the innovation is going to 
come from. I think--I am sure your traditional standard 
contractors are doing a fine job, but if you want to think out 
of the box, come up with some ideas, you have got to go 
somewhere where you haven't gone before. So please continue to 
do that work.
    I am out of time, so I would like to recognize Mrs. Lesko 
for 5 minutes of questions, as well.
    Mrs. Lesko. Thank you, Mr. Chairman. This question is for 
Ms. Cogswell.
    Section 1906 of the law requires TSA to complete a 
comprehensive agency-wide review to produce spending reductions 
and administrative savings that can be achieved by streamlining 
offices within TSA. This provision also asked TSA to eliminate 
duplicative programs and reduce the number of senior executive 
service personnel by as much as 20 percent.
    I would assume--one of my questions is going to be if we 
can reduce these duplicative--if I am saying it right--
programs, and reduce the number of senior executive personnel, 
could we then move the money over to the concern about TSO 
officers pay?
    Anyway, this report was due on August 1. I guess we don't 
have the report yet. So my question is two-fold: When do you 
think we will--going to have the report, and can we utilize any 
of these savings and move it over to TSO pay increases?
    Ms. Cogswell. Thank you very much, ma'am. We have completed 
the analysis, including already implementing significant 
realignments across the agency.
    We also have projected in some additional cost savings for 
headquarters associated with our move later--sorry, going into 
next year out to Springfield of about 11 percent across 
headquarters functions, with the sole intent of reallocating 
those resources to the field.
    The report itself is within interagency clearance, and we 
hope to get it to you within the coming weeks.
    Mrs. Lesko. Wonderful. Thank you. I yield back.
    Mr. Correa. Thank you, Mrs. Lesko. I would like to 
recognize Mr. Cleaver for 5 minutes of questions.
    Mr. Cleaver. Thank you, Mr. Chairman. When I was having 
difficulties getting through the airport, which is because of 
my last name, I--but for an American airline Government 
relations person here in Washington, I am not sure that I would 
not still be on there. But I don't--that is not what I want to 
talk about. I want to talk about money.
    This is not your fault, as I said before, but I think you 
are about the fourth person this year that I have raised this 
issue--because of my concern. So, you know, how long are you 
going to be here? How long are you going to be here in the job?
    Ms. Cogswell. I am not intending to leave any time soon. I 
was selected at this job--I have been here about 18 months.
    Mr. Cleaver. OK. See, the problem is that, you know, I talk 
to one person and they say, OK, you are right, we are going 
to--we have got to do something. Then the next month we have a 
new director and a new acting director. So I don't--I mean I 
don't want to waste your time and my time talking about 
something that, you know, you won't be around long enough to 
address.
    Tell us, what is the starting salary for a TSO?
    Ms. Cogswell. If you look at the base salary, without the 
locality pay included, it is about $27,000, roughly equivalent 
to a GS-4 in the general schedule. If you add in locality pay, 
most locations is about $33,000.
    Mr. Cleaver. The GS-4 is probably not going to get shot at.
    Ms. Cogswell. I am sorry, sir?
    Mr. Cleaver. A GS-4 is probably not going to get shot at.
    Ms. Cogswell. The GS-4 position that it is modeled after is 
the position that is designated by OPM for what is called 
unarmed security guard is the comparator. I share with you, 
however, the very strong interest in recognizing the incredible 
professionalism of our work force, the increasing automation 
that they are required to know, the sheer variability in their 
environment, and completely concur with you that I value them 
well above that.
    Mr. Cleaver. OK. So we have got to get this fixed. I mean, 
I know--let me just--you know, maybe I will have to do 
something when we get--I am hopeful we are going to get a 
budget or some kind of spending bill, because there are a 
couple of things that I want to try to get in there. One is 
that we got to stop paying these people who are putting their 
lives on the line a pittance.
    The other part is my airport is--and you are the fourth 
person that I have talked to about the Kansas City 
International Airport, Kansas City, Missouri is 1 of only 2 
airports in the country where we don't have the Government TSA 
workers. You know, I can't work--there is nobody around long 
enough to work with, because I want to get that stopped and 
changed.
    San Francisco is the other airport, and--but I don't want 
ours to stay like it is.
    So there are 2 things that I need your help on. One is the 
money and one is this private contractor who is running the TSA 
airport in Kansas City, Missouri. I am not mad at him or her, 
but it started out, you know, just like--we were--the facial 
recognition, you know, we started--it started out as, you know, 
some kind of a test pilot--a pilot project, rather. The pilot 
then rolling now for--since 9/11. I need it to be changed. Can 
you change it by the time I come back next week?
    Ms. Cogswell. The Screening Partnership Program is 
established in law, sets out the exact parameters for how we 
are--put out the parameters, the requirements for how the 
program operates, how we identify which vendors will be able to 
meet the----
    Mr. Cleaver. Well, there are only 2. I mean, everybody else 
is on the Federal program. So I don't----
    Ms. Cogswell. We have 24.
    Mr. Cleaver. Little bitty airports. I am talking--you are 
talking about little, tiny--I have been to those airports, too. 
Wichita Falls, Texas, where I graduated from high school, I 
mean, I--you are right.
    But I am not--I am talking about the largest city in the 
State of Missouri, the largest city in the lower Midwest.
    We are still running on a program that is supposed to be 
temporary.
    Ms. Cogswell. We are happy to come and talk with you more. 
We work very closely----
    Mr. Cleaver. When can you----
    Ms. Cogswell [continuing]. Airports involved. They are the 
ones who determine whether or not----
    Ms. Jackson Lee. Who? The airports?
    Ms. Cogswell. The airport authority is the actual one who 
says they want to pursue the private entity.
    Mr. Cleaver. OK, we don't have an airport authority. I 
guess it would be the mayor of the city. We don't have an 
airport authority.
    Ms. Cogswell. We would be happy to come and talk with you 
more specifically about your airport.
    Mr. Cleaver. I would be happier. I will try to work with 
you after.
    Ms. Cogswell. Thank you.
    Mr. Correa. Thank you, Mr. Cleaver. Now I would like to 
recognize Ms. Jackson Lee for 5 minutes of questions.
    Ms. Jackson Lee. Can I again say how grateful I am for your 
kindness, and to the committee?
    Let me say, too, Congressman Cleaver, please count me as 
joining in enthusiastically. When this program began, I was in 
opposition to it. Again, not in any negative reflection on 
contractors, but I think because the TSOs are front-line 
security for National security, there should be a consistent 
managing structure.
    As indicated, Congressman, the airports opted in. They were 
given the--this--but it was put into law by us, individuals 
who, I think, thought privatization was a good thing. Many of 
us opposed it. But it is in law, so that means the airport can 
opt in. But they can opt out, except for--as sort of a lease 
situation--not a lease, but a contract, whether it runs out or 
not. But that is what happened.
    I think the other thing that I want to make sure is that we 
are no longer thinking about not having TSOs at small airports. 
Remember, that was proposed in some, I think, mindless concept 
that we won't put them at the small airports. We will wait 
until someone gets on the plane as a terrorist, and go to the 
big airport. So I just want to get that answer. That is no 
longer on the table, regarding small airports not having TSOs 
under the Transportation Security Administration.
    Ms. Cogswell. Correct.
    Ms. Jackson Lee. OK. The other thing is I want to join and 
make the point about the salaries of TSOs, because one of the 
modernizations is the questions that GAO mentioned--and I would 
like him to expand--is the modernization of technology.
    I want to know, are we moving fast enough? Is TSA moving 
fast enough with a new type of technology to detect more 
sophisticated ways of terrorist behavior, sir?
    Mr. Russell. Certainly. So we have seen, with the computer 
tomography at the checkpoint, you know, that is the latest 
technology that is being piloted. But certainly, we have 
thinking adversaries, they are changing tactics, new threats. 
When we last looked at TSA's covert testing program, you know, 
we saw that there were some challenges there in what their own 
teams were able to find when they did their covert tests.
    So I think the key there for TSA is, really, once you know 
the vulnerabilities, whether it is technology or processes or 
things that your TSOs might be doing or could be doing better, 
to find a mitigation solution and effectively get those 
implemented. So we had a few recommendations that TSA is 
working on in that regard.
    Ms. Jackson Lee. Can I yield to the deputy to see--are you 
moving on the recommendations of GAO, particularly with 
technology?
    Ms. Cogswell. We are moving on those recommendations. We 
have a significant program. I highlighted our innovation task 
force is one of these key areas where we are able to rapidly 
bring on board potential solutions that have gone through kind-
of an initial review with that ability to do demonstrations, 
determine the effectiveness well before it is ready for full 
market. This lets us expedite our development of our 
requirements process, frankly, as well as help understand 
whether or not there is feasibility in a specific location: A 
significant improvement over traditional procurement processes.
    Ms. Jackson Lee. So does that mean, holistically, that you 
are trying to make amends, or correct the slowness in 
technology, or to expand technology, and then train TSOs on 
that new technology?
    Ms. Cogswell. Correct.
    Ms. Jackson Lee. Is that a goal that you are working on?
    Ms. Cogswell. Absolutely, to all 3 of those, yes.
    Ms. Jackson Lee. Then I would add--and I compliment the 
gentleman from Kansas--from Missouri, Kansas City, on raising 
the contracting issue.
    My concern would be in these airports that accepted that, I 
want to make sure the salaries are comparable, and that you are 
taking under advisement the need for increased salaries.
    What do you need from us? I know money. But what is a 
structure that you need to increase the salaries of your TSOs?
    Ms. Cogswell. So just to highlight the point you made about 
the difference between the TSOs and the SPP airports, we do 
require that they pay the same amount that we do. So if we are 
able to identify additional funds to increase salaries, they 
would be required to match, as well.
    What we would like in the near term is the ability to have 
some robust conversations with you about different models. What 
is within our authority? What is the options within the funding 
caps that we receive for the coming years to determine the best 
path forward?
    Extremely--I can't say enough how extremely valuable we 
think it is that you are asking these questions and expressing 
this interest, incredibly valuable for the work force of our 
morale, as well as the interest--demonstrating the interest and 
importance that these officers perform on a day-to-day basis.
    Ms. Jackson Lee. If I could squeeze one more question in, 
we opened a couple of years back the academy in Georgia. I want 
to know how that is working. This whole idea of professional 
development, are you all still encouraging?
    I understand you send TSOs to that school after they have 
been on staff for a while. You have changed the format. Is that 
working? Is that accurate, what I am saying? Can you tell me 
how that is working?
    Ms. Cogswell. Absolutely. Yes. We changed our model. What 
we had found, when we stood up our centralized capability, was 
we were bringing people on board immediately, sending them to a 
multi-week training. Then, in rapid order, you know, they were 
really understanding what life was like working at a 
checkpoint, and deciding perhaps it wasn't the best fit.
    Through our new model we are able to train them on certain 
functions that don't require that full training, let them 
experience the environment, see how loud it is, see what it is 
like interacting with several thousand people a day, make sure 
it is a good fit for them, then go through the training.
    We are seeing a decrease in the number of people leaving 
after the training, saving us the expense of that, as well.
    Ms. Jackson Lee. So professional development is very 
important.
    Ms. Cogswell. Critically important, and part of our TSO 
career progression, as well.
    Ms. Jackson Lee. We need to keep funding it.
    Ms. Cogswell. Absolutely. Thank you very much for that.
    Ms. Jackson Lee. All right. I yield back, Mr. Chairman, 
thank you very much.
    Mr. Correa. Thank you very much. I want to thank the 
witnesses for your very, very valuable, important testimony. I 
want to thank the Members, also, for their questions.
    If I can, Ms. Cogswell, you heard some of the messages here 
today were very important to us to try to reduce turnover, 
implementation of technology, PreCheck.
    Of course, the issue Mr. Cleaver brought up, which is, how 
do you get off those lists, once you are on them?
    If the Members of the committee have any additional 
questions for the witnesses, we ask that you respond 
expeditiously in writing to those questions.
    Without objection, the committee record shall be kept open 
for 10 days.
    Seeing no further business, this subcommittee stands 
adjourned. Thank you very much.
    [Whereupon, at 11:25 a.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

   Questions From Chairman J. Luis Correa for Patricia F.S. Cogswell
                               air cargo
    Question 1. Section 1925 of the TSA Modernization Act required TSA 
to submit a feasibility study and conduct a pilot program regarding the 
use of Computed Tomography or other technologies to screen air cargo. 
TSA recently began its pilot program and has not submitted its 
feasibility study to date.
    What is the status of the feasibility study and the pilot?
    Answer. Response was not received at the time of publication.
    Question 2. What steps did TSA take to select the technology being 
tested under the pilot?
    Answer. Response was not received at the time of publication.
    Question 3. Does TSA plan to work with additional industry 
stakeholders during the pilot?
    Answer. Response was not received at the time of publication.
    Question 4. What process does TSA have in place for certifying and 
qualifying emerging technologies for use in air cargo security?
    Answer. Response was not received at the time of publication.
                   technology donations from industry
    Question 5. TSA recently finalized its Capability Acceptance 
Process (CAP), which outlines a strategy to allow industry 
stakeholders, such as airports and airlines, to donate approved 
security technologies to TSA.
    Does TSA have concerns that small- and medium-sized airports may 
not have the resources to donate equipment, so these facilities may 
wait longer than others to receive equipment?
    Answer. Response was not received at the time of publication.
    Question 6. Does TSA plan to rely on donations from industry rather 
than the normal appropriations process for funding its security 
requirements?
    Answer. Response was not received at the time of publication.
                           pipeline security
    Question 7. In December 2018, GAO released a report to TSA 
regarding its pipeline security activities with 10 recommendations. GAO 
found that TSA has not established a workforce plan for the Pipeline 
Security Branch to hire workers with the appropriate skills.
    What steps is TSA taking to ensure it is hiring qualified staff, 
including staff with cybersecurity expertise, to meet its current 
needs?
    Answer. Response was not received at the time of publication.
                           facial recognition
    Question 8. TSA recently ended a pilot program at the McCarran 
International Airport in Las Vegas to study the use of facial 
recognition technology to verify passengers' identities.
    Is TSA planning additional pilots?
    Answer. Response was not received at the time of publication.
    Question 9. Will TSA go through a public notice and comment process 
prior to wide-spread deployment of facial recognition technology?
    Answer. Response was not received at the time of publication.
    Question 10. Will TSA publish a public version of the report it 
completed on biometrics and facial recognition technology under Section 
1919 of the TSA Modernization Act?
    Answer. Response was not received at the time of publication.
                           airport wait times
    Question 11. Section 1922 of the TSA Modernization Act required TSA 
to provide real-time wait time information at airport checkpoints 
within 1 year of enactment.
    What is TSA doing to ensure that wait times are being measured 
equally at different airports?
    Answer. Response was not received at the time of publication.
    Question 12. Certain airports already have their own tracking tools 
in place. How is TSA planning to ensure data accuracy and consistency 
of this information across different platforms?
    Answer. Response was not received at the time of publication.
 Questions From Ranking Member Debbie Lesko for Patricia F.S. Cogswell
   section 1922 of tsa modernization--real-time, wait time reporting
    Question 1. Please provide the committee with an update on how TSA 
is performing on evaluating, establishing, and publishing technical 
requirements for airport compliance with Section 1922 of the TSA 
Modernization Act. Please include an updated time line.
    Answer. Response was not received at the time of publication.
    Question 2. Please provide the committee with an overview of TSA-
sponsored or supported wait-time reporting demonstrations to date, 
including the TSA Advancing the Checkpoint Experience program, and each 
demonstration's objective.
    Answer. Response was not received at the time of publication.
    Question 3. TSA checkpoint wait time reporting is expected to 
inform the passenger experience. Combined with aggregate data 
collection and advanced analytics, wait time reporting can result in 
operational cost savings, more efficient staffing models, better asset 
management, increased screener productivity, and an improved passenger 
experience. How is TSA looking to leverage these potential operational 
benefits in its development of Section 1922 data and system 
requirements?
    Answer. Response was not received at the time of publication.
    Question 4. Air passenger volume has been growing 4-6 percent 
annually, and Airports Council International forecasts approximately 30 
percent growth in passenger traffic from 2018 to 2023. Given the clear 
need for both broad strategic and localized responses to this dramatic 
increase, how is TSA ensuring compliance with Section 1922 to empower 
TSA Headquarters with standardized, network data and analysis along 
with actionable queue intelligence to on-site TSA managers?
    Answer. Response was not received at the time of publication.
    Question 5. In 2018 and early 2019, the TSA Innovation Task Force 
(ITF) conducted a real-time wait time technology pilot at Chicago 
O'Hare International Airport. The ITF demonstration led to 
significantly shorter TSA wait times and other operational benefits at 
the airport. What were the lessons learned from this demonstration, and 
how will this demonstration inform formal Section 1922 requirements?
    Answer. Response was not received at the time of publication.
    Question 6. While several airports are independently reporting TSA 
checkpoint wait times, there are currently no formal data standards for 
TSA checkpoint wait-time reporting. Section 1922 does, however, define 
when a wait time begins and ends. Presently, what is TSA doing to 
ensure that airports are reporting accurate and comparable data sets? 
How will this be defined and addressed in the eventual requirements?
    Answer. Response was not received at the time of publication.
    Question 7. Given the time pressure, is TSA considering procurement 
models that will ensure the Section 1922 mandate is met within the 18-
month window? What procurement models are under consideration? When 
will decisions be made on a Nation-wide procurement strategy?
    Answer. Response was not received at the time of publication.
    Question 8. Given that CBP is under similar pressure to measure and 
reduce wait times, how and where is TSA collaborating with CBP to 
ensure accurate and standardized data is available on both inbound and 
outbound passenger journeys?
    Answer. Response was not received at the time of publication.
    Question 9. The deadline for REAL ID compliance is October 1, 2020. 
According to a U.S. Travel Association survey conducted within the last 
month, 99 million Americans do not have a REAL ID or any acceptable 
identification that can be used once REAL ID is enforced. U.S. Travel 
estimates that 89,000 could be turned away at the airport on the first 
day alone, which would cause chaos at our airports and cost our economy 
more than $40 million.
    What is TSA's plan for handling passengers who show up without a 
REAL ID or an acceptable alternative starting October 1, 2020? Will 
they be turned away at the checkpoint? Will there be a screening 
process in place to get them through the checkpoint?
    Answer. Response was not received at the time of publication.
    Question 10. Is it possible for TSA to designate PreCheck 
enrollment as an acceptable alternative to REAL ID?
    Answer. Response was not received at the time of publication.
    Question 11. What authority does TSA have to designate acceptable 
alternative identification?
    Answer. Response was not received at the time of publication.
    Question 12a. In order to reduce the burden on State DMVs and 
individuals, has DHS looked at allowing States to query verification of 
citizenship/legal status and identity through trusted traveler programs 
like PreCheck or Global Entry, since members of these programs have 
already been vetted?
    Answer. Response was not received at the time of publication.
    Question 12b. What is TSA's plan for handling passengers who show 
up without a REAL ID or an acceptable alternative starting October 1, 
2020? Will they be turned away at the checkpoint? Will there be a 
screening process in place to get them through the checkpoint?
    Answer. Response was not received at the time of publication.
    Question 12c. What authority does TSA have to designate acceptable 
alternative identification?
    Answer. Response was not received at the time of publication.

                                 [all]
</pre></body></html>
